<html>
<title> - PUBLIC AND PRIVATE RESOURCE MANAGEMENT AND PROTECTION ISSUES IN THE NATIONAL FOREST SYSTEMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  PUBLIC AND PRIVATE RESOURCE MANAGEMENT AND PROTECTION ISSUES IN THE 
                        NATIONAL FOREST SYSTEMS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      MAY 18, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-29

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources
                                 ______


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 58-515                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HOLT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       PATRICK J. KENNEDY, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 18, 1999........................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2

Statements of witnesses:
    Anderson, Dale E., President, Pennsylvania Forest Industry 
      Association, Ridgway, Pennsylvania.........................    51
        Prepared statement of....................................    52
    Hairston, Andy, Highland Enterprises, Incorporated, 
      Grangeville, Idaho.........................................     7
        Prepared statement of....................................    10
    Johnson, Brett C., Forks, Washington.........................    82
        Prepared statement of....................................    83
    Keller, Sheila, Treasurer, Montana Women in Timber, 
      Kalispell, Montana.........................................    63
        Prepared statement of....................................    65
    Platt, Teresa, Executive Director, Fur Commission USA, 
      Coronado, California.......................................    16
        Prepared statement of....................................    18
    Wasley, William F., Director, Law Enforcement and 
      Investigations, United States Forest Service...............     3
        Prepared statement of....................................     5


  PUBLIC AND PRIVATE RESOURCE MANAGEMENT AND PROTECTION ISSUES IN THE 
                        NATIONAL FOREST SYSTEMS

                              ----------                              


                         TUESDAY, MAY 18, 1999

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth [chairwoman of the Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on 
public and private resource management and protection issues in 
the National Forest System.
    Under rule 4(g) of the Committee rules, any oral opening 
statements of hearings are limited to the chairman and the 
Ranking Minority Member. That will be afforded to the Ranking 
Minority Member when he arrives at the Committee. This will 
allow us to hear from our witnesses sooner and help members 
keep to their schedules as well as facilitate your keeping to 
your schedules. Therefore, if other members have statements, 
they will be included in the hearing record.
    Today's oversight hearing will focus on the public and 
private resource management issues in the National Forest 
System. This broad title allows us to hear from normal, hard-
working citizens from outside the Washington, DC beltway about 
a wide range of issues dealing with our national forests where 
those citizens live and work.
    Our first panel will focus on law enforcement challenges 
within the National Forest System, and partially services as a 
follow-up to a hearing this Subcommittee held on June 23 of 
last year in the Forest Service's law enforcement activities. 
That hearing, which included only Forest Service and GAO 
witnesses, included extensive testimony from the Forest 
Service's Director of Law Enforcement and Investigations, 
William Wasley, and I welcome Director Wasley here today as a 
witness.
    At last year's hearing, members were concerned about the 
Forest Service's concentration of law enforcement activities in 
the Washington office and the need to devolve more power to 
local law enforcement agencies through block grants. As 
chairman, I was very concerned about the agency's apparent 
failure to document citizens' complaints against law 
enforcement personnel. Now, in general, this Subcommittee was 
alarmed that very poor written records appeared to be kept on 
law enforcement.
    That hearing, nearly one year ago, I requested that 
Director Wasley submit to the Subcommittee a report on eco-
terrorism on the national forests and what the Forest Service 
has done to combat those terrorists, including the use of 
conspiracy or RICO statutes. The response to this request, 
dated November 10, 1998 is a one-page long document and begins 
with the sentence, ``Although the term `anti-timber terrorist 
group activities' is unclear, we assume you are referring to 
unlawful acts committed by persons who oppose the harvesting of 
timber from public lands.'' This response, frankly, is an 
insult to this Subcommittee, and it illustrates how seriously 
the Forest Service is combating eco-terrorism.
    By having two private citizens as witnesses on our first 
panel, we will be able to put a human face on eco-terrorism 
within the National Forest System and how law enforcement 
officials are dealing with it. I am particularly interested in 
hearing from my constituent, Andy Hairston, about his long-
running feud with terrorists who have made every effort to 
prevent him from making a livelihood in northern Idaho. In 
talking with Mr. Hairston before the hearing, I am disturbed 
about the Forest Service's unwillingness to aggressively bring 
these terrorists to justice.
    Our final panel is composed entirely of citizens whose 
communities and livelihoods depend on their local national 
forests. Among them are constituents of Subcommittee members 
John Peterson and Rick Hill, and I look forward to their candid 
testimony about what the changes the Forest Service needs to 
make to improve their local community.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Today's oversight hearing will focus on Public and Private 
Resource Management Issues in the National Forest System. This 
broad title allows us to hear from normal hard-working citizens 
from outside the Washington, DC beltway about a wide range of 
issues dealing with the national forests where they live and 
work.
    Our first panel will focus on law enforcement challenges 
within the National Forest System and partially serves as a 
follow-up to a hearing this Subcommittee held on June 23 of 
last year on the Forest Service's law enforcement activities.
    That hearing, which included only Forest Service and GAO 
witnesses, included extensive testimony from the Forest 
Service's Director of Law Enforcement and Investigations 
William Wasley. I welcome Director Wasley here today as a 
witness.
    At last year's hearing, members were concerned about the 
Forest Service's concentration of law enforcement activities in 
the Washington Office and the need to devolve more power to 
local law enforcement agencies through block grants. As 
Chairman, I was very concerned about the agency's apparent 
failure to document citizen's complaints against law 
enforcement personnel. In general, the Subcommittee was alarmed 
that very poor written records appeared to be kept on law 
enforcement.
    At that hearing nearly one year ago, I requested that 
Director Wasley submit to the Subcommittee a report on eco-
terrorism on the national forests and what the Forest Service 
has done to combat these terrorists, including the use of 
conspiracy or R.I.C.O. statutes. The response to this request, 
dated November 10, 1998, is one page long and begins with the 
sentence, ``although the term `anti-timber terrorist group 
activities' is unclear, we assume you are referring to unlawful 
acts committed by persons who oppose the harvesting of timber 
from public lands.'' This response is an insult to this 
Subcommittee and it illustrates how seriously the Forest 
Service is combating eco-terrorism.
    By having two private citizens as witnesses on our first 
panel, we will be able to put a human face on ecoterrorism 
within the National Forest System and how law enforcement 
officials are dealing with it. I am particularly interested in 
hearing from my constituent Andy Hairston, about his long- 
running feud with terrorists, who have made every effort to 
prevent him from making a livelihood in northern Idaho. In 
talking with Mr. Hairston before the hearing, I am disturbed 
about the Forest Service's unwillingness to aggressively bring 
these terrorists to justice.
    Our final panel is composed entirely of citizens whose 
communities and livelihoods depend on their local national 
forests. Among them are constituents of Subcommittee members 
John Peterson and Rick Hill. I look forward to their candid 
testimony about what changes the Forest Service needs to make 
to improve their local communities.

    Mrs. Chenoweth. I will now introduce our first panel. Mr. 
William Wasley, Director of Law Enforcement and Investigations 
with the U.S. Forest Service; welcome, sir. Mr. Andy Hairston, 
Highland Enterprises, Incorporated, Grangeville, Idaho; 
welcome, sir. And Ms. Teresa Platt, executive director, Fur 
Commission USA, Coronado, California; welcome, ma'am.
    As explained in our first hearing, it is the intention of 
the chairman of the Committee to place all outside witnesses 
under the oath. Now, this is a formality of the Committee that 
is meant to assure open and honest discussion and should not 
afford the testimony given by witnesses and shouldn't affect 
the testimony at all, and I believe that all of the witnesses 
were informed of that before this hearing today, and each of 
you have been provided with a copy of the Committee rules.
    Now, if you will please stand and raise your right hand, I 
will administer the oath.
    [Witnesses sworn.]
    The Chair now recognizes Mr. Wasley for his testimony.

 STATEMENT OF WILLIAM F. WASLEY, DIRECTOR, LAW ENFORCEMENT AND 
          INVESTIGATIONS, UNITED STATES FOREST SERVICE

    Mr. Wasley. Thank you, Madam Chairman.
    Madam Chairman and members of the Subcommittee, my name is 
Bill Wasley, and I am the Director of the Forest Service Law 
Enforcement and Investigations Program. I am pleased to appear 
before you today to discuss Forest Service law enforcement.
    The key elements of the Forest Service Law Enforcement and 
Investigations Program are protecting and serving the public 
and our employees, protecting natural resources and other 
property under the jurisdiction of the Forest Service, and 
cooperating with other law enforcement agencies. We accomplish 
these key goals by applying the common sense crime prevention 
elements of education, engineering, and enforcement.
    I appeared before this Subcommittee on June 23, 1998 to 
discuss the Forest Service LE&I--Law Enforcement 
Investigations--program and structure, authorities, cooperation 
with State, local, and other Federal agencies, and the unique 
and special challenges facing our program. As follow-up to the 
hearing, we also provided information and documents to the 
House Resources Committee on various law enforcement matters 
and the reorganization of LE&I within the Forest Service. I 
will briefly discuss each of the key elements of the LE&I 
Program.
    Protection of visitors and users of the national forests 
and Forest Service employees in the performance of their duties 
is the primary mission of law enforcement and investigation. 
Crime is increasing, at least on some national forests, and 
LE&I has responded to the increasing workload in apprehending 
criminals and acting on criminal activity within the confines 
of current staffing and cooperative support.
    Security is important to the public. Criminal activity, 
such as personal assault, gang activity, and the theft of 
property negatively impact visitor experiences. Vandalism and 
theft at recreation facilities decrease public enjoyment and 
divert limited recreation dollars. Law enforcement personnel 
also operate as full partners with the Forest Service in 
carrying out the Forest Service mission.
    LE&I provides protection for natural resources, including 
timber, water, soils, special forest products and archeological 
sites. Resource damage from arson and human-caused fires can be 
substantial. Unauthorized use of the national forest can damage 
natural resources and property and cause irreversible impacts.
    Timber theft remains a top priority of the Forest Service 
LE&I staff. In 1998, there were over 35 cases dealing with 
timber theft. The LE&I staff coordinates closely with the 
Forest Management staff on all timber theft cases involving 
timber sale contracts.
    Illicit drug labs and marijuana cultivation on national 
forest lands continue to be a major concern. With adverse 
effects on natural resources and on public and employee safety. 
Toxic chemicals used on illicit labs and marijuana gardens 
leach into soil and waterways causing negative impacts to 
vegetation, wildlife, and drinking water. Working cooperatively 
with our State and local law enforcement partners, the Forest 
Service eradicated over 330,000 marijuana plants last year and 
found 105 meth-amphetamine labs and lab dumps on National 
Forest System lands, an increase from 1997 totals. Officers 
made over 2,800 arrests and seized over $4.8 million in assets.
    Each year, increases in public use of National Forest 
System lands cause increases in crimes against people and 
resources. Other Federal, State, and local law enforcement 
agencies are similarly faced with increasing crime trends that 
tax their abilities to accomplish their work with limited 
resources.
    The Cooperative Law Enforcement Act authorized the Forest 
Service to reimburse local law enforcement agencies for 
expenses associated with law enforcement services on National 
Forest System lands. In 1998, the Forest Service maintained 
some 530 cooperative agreements with State and local agencies 
for performance of routine law enforcement patrol activities 
and 163 drug enforcement cooperative agreements. Over $6 
million were provided through these agreements to local law 
enforcement agencies. We are currently developing a 
standardized cooperative agreement to be used nationwide. Upon 
implementation, we will assess the level of funding provided to 
each cooperative to cover their extraordinary expenses incurred 
while working on National Forest System lands.
    The Senate Appropriations Committee report for the Fiscal 
Year 1999 Department of Interior and Related Agencies 
Appropriations Act directed the Forest Service to evaluate the 
comparative costs of Forest Service uniformed law enforcement 
officers to those of county enforcement officials and other 
uniformed Federal natural resource oriented law enforcement 
officers. As part of this evaluation, an analysis will be 
conducted regarding the ability of local enforcement officials 
to enforce Federal statutes, give priority to such statutes 
within the constraints of local priorities, attain Federal 
training standards, prevent increased liability under the 
Federal Tort Claims Act, and retain independence from external 
influence. Initial findings should be completed near the end of 
May, 1999. In addition, we will be conducting a random survey 
of country sheriffs to assess their ability to undertake this 
activity. We expect those results back this summer.
    In summary, with the expectation that we will have one 
billion visitor days on our national forests this year, the Law 
Enforcement and Investigations Program is critical to 
protecting and serving the public and our employees, protecting 
natural resources and other property under the jurisdiction of 
the Forest Service, and cooperating with other law enforcement 
agencies. The job is immense, and we are working hard at 
providing these services with the resources we have available 
to the do the job.
    Thank you, Madam Chairman and members of the Subcommittee 
for allowing me the opportunity to speak before you today. I am 
ready to answer any questions you may have.
    [The prepared statement of Mr. Wasley follows:]
     Statement of William F. Wasley, Director, Law Enforcement and 
Investigations, Forest Service, United States Department of Agriculture
    Madam Chairman and members of the Subcommittee, my name is Bill 
Wasley, and I am the Director of the Forest Service Law Enforcement and 
Investigations program. I am pleased to appear before you today to 
discuss Forest Service law enforcement.
    Key elements of the Forest Service Law Enforcement and 
Investigations (LE&I) program are:

        1. protecting and serving the public and our employees;
        2. protecting natural resources and other property under the 
        jurisdiction of the Forest Service; and
        3. cooperating with other law enforcement agencies.
    We accomplish these key goals by applying the common sense crime 
prevention elements of education, engineering, and enforcement.
    I appeared before this Subcommittee on June 23, 1998, to discuss 
the Forest Service LE&I program and structure, authorities, cooperation 
with State, local, and other Federal agencies, and the unique and 
special challenges facing our program. As follow-up to the hearing we 
also provided information and documents to the House Resources 
Committee on various law enforcement matters, and the reorganization of 
LE&I within the Forest Service.
    I will briefly discuss each of the key elements of the LE&I 
program.

PROTECTING AND SERVING THE PUBLIC AND OUR EMPLOYEES

    Protection of visitors and users of the National Forests and Forest 
Service employees in the performance of their duties is the primary 
mission of law enforcement and investigation.
    Crime is increasing, at least on some national forests, and LE&I 
has responded to the increasing work load in apprehending criminals and 
acting on criminal activity within the confines of current staffing and 
cooperative support. Security is important to the public. Criminal 
activities such as personal assault, gang activity and theft of 
property negatively impact visitor experiences. Vandalism and theft at 
recreation facilities decrease public enjoyment and divert limited 
recreation dollars.
PROTECTING NATURAL RESOURCES

    Law enforcement personnel also operate as full partners within the 
Forest Service in carrying out the Forest Service mission. LE&I 
provides protection for natural resources, including timber, water, 
soils, special forest products, and archaeological sites. Resource 
damage from arson and human-caused fires can be substantial. 
Unauthorized use of the national forests can damage natural resources 
and property and cause irreversible impacts.
    Timber theft remains a top priority of the Forest Service LE&I 
staff. In 1998, there were over 35 cases dealing with timber theft. The 
LE&I staff coordinates closely with the Forest Management staff on all 
timber theft cases involving timber sale contracts.
    Illicit drug labs and marijuana cultivation on national forest 
lands continue to be a major concern, with adverse effects on natural 
resources and on public and employee safety. Toxic chemicals used in 
illicit labs and marijuana gardens leach into soil and waterways 
causing negative impacts to vegetation, wildlife, and drinking water. 
Working cooperatively with our state and local law enforcement 
partners, the Forest Service eradicated over 330,000 marijuana plants 
last year and found 105 meth-amphetamine labs and lab dumps on National 
Forest System lands, an increase from 1997 totals. Officers made over 
2,800 arrests and seized over $4.8 million dollars in assets.

COOPERATION WITH OUR PARTNERS

    Each year increases in public use of National Forest System lands 
cause increases in crimes against people and resources. Other Federal, 
State, and local law enforcement agencies are similarly faced with 
increasing crime trends that tax their abilities to accomplish their 
work with limited resources.
    The Cooperative Law Enforcement Act authorizes the Forest Service 
to reimburse local law enforcement agencies for expenses associated 
with law enforcement services on National Forest System lands. In 1998, 
the Forest Service maintained 530 cooperative agreements with State and 
local agencies for performance of routine law enforcement patrol 
activities, and 163 drug enforcement cooperative agreements. Over $6 
million dollars were provided through these agreements to local law 
enforcement agencies. We are currently developing a standardized 
cooperative agreement to be used nationwide. Upon implementation, we 
will assess the level of funding provided to each cooperator to cover 
their extraordinary expenses incurred while working on National Forest 
System lands.
    The Senate Appropriations Committee report for the fiscal year 1999 
Department of Interior and Related Agencies Appropriations Act directed 
the Forest Service to evaluate the comparative costs of Forest Service 
uniformed law enforcement officers to those of county enforcement 
officials and other uniformed Federal natural resource oriented law 
enforcement officers. As part of this evaluation, an analysis will be 
conducted regarding the ability of local enforcement officials to 
enforce Federal statutes, give priority to such statutes within the 
constraints of local priorities, attain Federal training standards, 
prevent increased liability under the Federal Tort Claims Act, and 
retain independence from external influence. Initial findings should be 
completed by the end of May, 1999. In addition, we will be conducting a 
random survey of county sheriffs to assess their ability to undertake 
this activity. We expect those results back this summer.

SUMMARY

    In summary, with the expectation that we will have one billion 
visitor-days on our national forests this year, the law enforcement and 
investigations program is critical to protecting and serving the public 
and our employees, protecting natural resources and other property 
under the jurisdiction of the Forest Service, and cooperating with 
other law enforcement agencies. The job is immense, and we are working 
hard at providing these services with the resources we have available 
to do the job.
    Thank you Madam Chairman and members of the Subcommittee for 
allowing me the opportunity to speak before you today. I am ready to 
answer any questions you may have.

    Mrs. Chenoweth. Thank you, Mr. Wasley.
    Mr. Hairston, the Chair recognizes you for testimony. 
Before you begin, I want to explain our light system. It is 
just like traffic lights--green means go, and yellow means step 
on it----
    [Laughter.]
    [continuing] and red means stop. So, we welcome your 
testimony. Mr. Hairston.

STATEMENT OF ANDY HAIRSTON, HIGHLAND ENTERPRISES, INCORPORATED, 
                       GRANGEVILLE, IDAHO

    Mr. Hairston. Madam Chairman and respected members of the 
Subcommittee, I thank you for the opportunity to speak before 
you today.
    My name is Andy Hairston. I am the corporate treasurer and 
general manager of Highland Enterprises, Incorporated, a road 
building and rock crushing company based in Grangeville, Idaho 
who has been in business since 1976. Over the last decade, 
Highland has specialized in timber sale access road 
construction on the national forest lands and private timber 
lands. We have strived to build ecologically sound roads to 
prevent erosion and to provide safe access for the harvesting 
of timber. These roads also provide access for fire fighting, 
recreation, hunting, fishing, and many other activities enjoyed 
by people visiting the national forests.
    During the summer of 1992, while working on a timber sale 
road construction project in the Cove Mallard area of the Nez 
Perce National Forest, we came into contact with members of the 
radical environmental group, Earth First, who were there to 
protest----
    Mrs. Chenoweth. Mr. Hairston?
    Mr. Hairston. Yes?
    Mrs. Chenoweth. I wonder if you could pull the mike closer 
to you?
    Mr. Hairston. Yes, ma'am. We came into contact with members 
of the radical environmental group, Earth First, who were there 
to protest the timber sale. The Cove Mallard has been open for 
logging by the Forest Service to help improve forest health by 
removing dead and dying timber. The protesters have since used 
this area as a focal point for their cause.
    At the time, the Earth First protesters were not very 
organized and did not present a significant safety threat to 
the employees of Highland Enterprises. The next year, the 
protesters were very organized and presented a real safety 
threat. The activists progressed from being just protestors to 
being environmental terrorists. They severely vandalized road 
building equipment, locked themselves to gates and trees, 
pulled up and destroyed construction stakes, plugged culverts, 
set up tripods on roadways, and threw spikes, slash, and rocks 
into the roadway to prevent vehicles from using it. These 
events occurred on a daily basis and severely limited Highlands 
road building activity. As a result, we were forced to hire 
security personnel to watch the equipment when not in use. The 
additional cost along with the cost from lost production and 
vandalized equipment became a large financial burden.
    During these protests, many arrests were made by both the 
Idaho County Sheriff Department and Forest Service law 
enforcement. The Sheriff's Department and Idaho County 
prosecuting attorney aggressively prosecuted these 
environmental terrorists resulting in jail time and a small 
amount of restitution for Highland, but Federal law enforcement 
prosecution was far less aggressive, usually resulting in a 
misdemeanor with little jail time for the activist and no 
restitution for Highland.
    The next timber sale road construction in the Cove Mallard 
area began in 1995. The terrorists were very organized and 
prepared for battle. In addition to the types of vandalism used 
in years before, the environmental terrorists had developed 
more sophisticated ways to stop road construction. For example, 
they buried concrete blocks in the roadway and chained 
themselves to the blocks below the ground level forcing law 
enforcement to hand dig out the activists. The also began to 
adopt other names for their causes--The Ancient Forest Bus 
Brigade, the Native Forest Network, and Friends of the Cove 
Mallard. This was done in an attempt to allude prosecution and 
project to the media that many organizations were protesting 
this timber sale and road building when in fact only one 
organization was involved--Earth First. Again, the efforts of 
the environmental terrorists to stop the road construction 
resulted in the loss of considerable amounts of monies due to 
the lost production and the cost of hiring of extra manpower to 
provide security.
    In 1995, the law enforcement participation also changed. 
Federal law enforcement became more involved, while the 
Sheriff's Department became less involved. This resulted in 
longer delays. Many times up to six hours waiting for Federal 
officers to remove the terrorists because of bureaucratic 
change of command which began with the law enforcement officers 
on site, then to the district ranger in Elk City, Idaho, then 
to the supervisor's office in Grangeville, Idaho, then to the 
region one office in Missoula, Montana, and, finally, to the 
chief of Forest Service law enforcement in Washington, DC. 
According to the Forest Service's own records, the agency spent 
over $250,000 trying to monitor and apprehend these radical 
environmentalists. It was at this time that Highland owner's 
decided to sue Earth First in a civil court. Individual 
activists, as well as the Earth First organization and their 
affiliated sub-components were named as defendants. Highland 
won this case and was awarded the judgment of over $1 million, 
of which Highland has collected less than $200, and, to date, 
our legal bills are over $200,000.
    The confrontations have continued on our road construction 
projects in the Cove Mallard area. Protestors then moved their 
destructive activities to a timber sale road construction 
project well separated from the Cove Mallard area. The Otter-
Wing timber sale is over 45 miles from the Cove Mallard protest 
area. The activists, again, used their same techniques along 
with tree sitting and vandalism to equipment to stop the road 
building. The Forest Service dispatched law enforcement 
officers in large numbers but with little effectiveness. The 
law enforcement officers provided one on one protection for the 
timber workers but were reluctant to make arrests of the 
activists who violated the area closure. Highland hired a 
professional security company to guard our equipment and 
materials at the job site. Highland then requested to be 
reimbursed for this additional security through a claim on the 
contract, but the Forest Service denied the claim. Through the 
Freedom of Information Act, I also requested records from the 
Forest Service law enforcement for denying the claim.
    Mrs. Chenoweth. We would like to give the witness another 
minute.
    Mr. Hairston. Thank you--but this Freedom of Information 
Act request was also denied. Both the claim for the 
reimbursement for the security cost and the Freedom of 
Information Act request are now being appealed through the 
appropriate channels.
    I feel that a large portion of the problems we have 
encountered could have been solved if local law enforcement 
would have been in the lead position to take control of the 
situation. The Federal law enforcement efforts on the Forest 
Service were riddled with bureaucracy and delayed action that 
cost valuable production time. It is my opinion that local law 
enforcement provides a much faster response to the 
environmental terrorists and when prosecuted in local courts, 
it keeps them incarcerated so they do not return to the protest 
site.
    I believe that the United States Forest Service has done a 
very poor job in providing protection for our employees and 
equipment while we working on these Federal timber sale road 
construction projects. Daily, the workers encountered 
environmental terrorists who threw sticks and rocks at our 
workers, yelled and screamed at workers, and tied themselves to 
equipment and trees. These actions put the lives of Highland 
employees and the lives of environmental terrorists in danger. 
Building logging roads is very dangerous to begin with, and 
when you introduce a group of people whose sole purpose is to 
intimidate, disrupt, and distract the workers, it is inevitable 
that someone is going to become injured or, even worse, killed.
    I hope that by becoming aware of the situation that is 
occurring in the forests of north central Idaho, that you can 
help us fix these problems before someone is seriously injured 
or killed.
    Thank you for the opportunity to speak before you today.
    [The prepared statement of Mr. Hairston follows:]

    [GRAPHIC] [TIFF OMITTED] T8515.001
    
    [GRAPHIC] [TIFF OMITTED] T8515.002
    
    [GRAPHIC] [TIFF OMITTED] T8515.003
    
    [GRAPHIC] [TIFF OMITTED] T8515.004
    
    [GRAPHIC] [TIFF OMITTED] T8515.005
    
    [GRAPHIC] [TIFF OMITTED] T8515.006
    
    Mrs. Chenoweth. Thank you, Mr. Hairston.
    And the Chair now recognizes Ms. Platt.

 STATEMENT OF TERESA PLATT, EXECUTIVE DIRECTOR, FUR COMMISSION 
                   USA, CORONADO, CALIFORNIA

    Ms. Platt. Thank you, and I will try to keep my comments to 
five minutes. I have submitted lengthier backup information and 
testimony, if you could put that in the record, please.
    Chairwoman Chenoweth, Committee members, and concerned 
citizens, thank you for allowing me to address you today.
    I am Teresa Platt with Fur Commission USA. I represent 600 
fur farming families on 400 farms in 31 States. Our farmers 
take the leftovers from food production and turn them into 
clothing, and I would like to contribute to this discussion of 
what happened on Forest Service lands last year with Vail, 
Colorado and as Mr. Hairston is discussing what is happening to 
him on a daily basis, because the fur industry has been coping 
with this for many, many years.
    We call this eco-terrorism and animal rights terrorism. We 
have found that, like the incident at Vail, we have been 
subjected to this along with the beef, poultry, dairy, timber, 
mining, and recreation industries, wildlife managers, research 
scientists, zoos, aquariums, and many others have been 
victimized in the name of saving the Earth or saving animals.
    As everyone is aware, Earth Liberation Front, or ELF, took 
credit for the Vail action. This is the sister group of Animal 
Liberation Front, or ALF. What many people don't know is that 
the next action after Vail was against a fur farming family in 
Powers, Michigan. Mr. and Mrs. Pipkorn, the Pipkorn Mink Farm, 
has been in business for over 60 years. ELF left Vail and 
released 5,000 animals from the Pipkorn Mink Farm the next 
week. If it weren't for the response of neighbors in that area, 
the Pipkorn Mink Farm would have been out of business by now. 
Sixty years of toil and sweat on a family farm would have been 
for nothing. The ELF statement after that release stated, ``As 
corporate destroyers burn in the West, wildlife nations will be 
liberated in the North.''
    There was another statement in 1997 where ELF took credit 
for releasing foxes from a farm, and they stated, ``that ELF's 
resistance against the capitalist death machine will not 
stop.''
    On October 21, 1998, fur farmers received a death threat 
from the ultimate enforcement arm of ALF and ELF, something 
called the Justice Department. The Justice Department 
threatened that any fur farmers or ``animal abusers'' who ``use 
violence against activists will suffer full retribution. The 
ALF have a clear policy of adherence to non-violence; we do 
not.''
    The Justice Department has claimed credit for hundreds of 
actions in the United Kingdom, Canada, and the United States 
resulting in millions of dollars in damages. A London paper, 
the Independent, said that their campaign was the most 
sustained and sophisticated bombing campaign in mainland 
Britain since the IRA was at its height. They said that a more 
accurate role model of the Justice Department's relationship to 
ALF might be the extremely violent Irish National Liberation 
Army, which broke away from the IRA.
    These people believe that by using a combination of 
economic sabotage and live liberations of domesticated animals, 
that they can achieve what others cannot through the political 
channels and non-violence. Anyone can search the Internet and 
find these statements. ``Animal abusers'' or ``Earth abusers'' 
to those using the terminology--to groups like ALF and ELF and 
Justice Department--are anyone who depends directly or 
indirectly on the environment, which is all of society.
    I don't want to give you a laundry list of all these 
terrorist actions, because the FBI has these. They are on the 
Internet; you can see pages and pages of these actions. Many 
people think they are a recent import, that they are an export 
from the United Kingdom, but I have found actions in the United 
States that go back at least 20 years.
    One of the most public ones that we probably haven't 
thought about for a long time was when Squeaky Fromme tried to 
assassinate President Ford in order to save the Earth. Her 
roommate, Sandra Good, spent 10 years in prison for sending out 
death threats to corporations who she saw as killing the Earth, 
death threats that went to the San Diego Tuna Fleet. My family 
owned a tuna fleet, and I know about it, because the FBI came 
and gave us guidelines on how to open our mail. I have been 
very carefully opening my mail for 20 years now.
    In 1997, the State of California granted non-profit status 
to a group called ATWA, Air, Trees, Water, and Animals. Sandra 
Good is an officer in that corporation. If you go on their web 
site, the logo incorporates a swastika, and the information on 
that site, which is from Charles Manson, promotes Hitler and 
the agenda of the Nazi regime.
    I have no problem with free speech, but I do have a problem 
as a taxpayer with giving non-profit benefits to a corporation 
that puts forward this sort of information under educational 
and scientific 501(c)(3) status. Is the government not 
watching? You are creating an atmosphere that promotes these 
sort of actions.
    In Salt Lake City, the Straight Edgers have engaged in a 
spree, a green and fuzzy crime spree that has resulted in over 
$800,000 worth of damage to our farmers' co-op; it has attacked 
leather stores, butcher shops, and anyone who deals with 
animals or the Earth. Several young men are now spending many 
years of their lives in jail over the promotion of this flawed 
philosophy.
    There is a group called National Animal Interest Alliance 
that is spearheading a call for action asking for government to 
establish a joint agency task force. We need to stop looking at 
these things as isolated incidents and work across State lines 
and agency lines. We need to look at the 501(c)(3) tax code 
which is giving non-profit status to groups that are 
romanticizing these actions.
    I don't have a problem with civil discourse and peaceful 
protest, but I do have a problem with eco-terrorism and animal 
rights terrorism, and I am happy to help you with a little more 
information on how we can work a little bit more effectively on 
this.
    Thank you.
    [The prepared statement of Ms. Platt follows:]

    [GRAPHIC] [TIFF OMITTED] T8515.007
    
    [GRAPHIC] [TIFF OMITTED] T8515.008
    
    [GRAPHIC] [TIFF OMITTED] T8515.009
    
    [GRAPHIC] [TIFF OMITTED] T8515.010
    
    [GRAPHIC] [TIFF OMITTED] T8515.011
    
    [GRAPHIC] [TIFF OMITTED] T8515.012
    
    [GRAPHIC] [TIFF OMITTED] T8515.013
    
    [GRAPHIC] [TIFF OMITTED] T8515.014
    
    [GRAPHIC] [TIFF OMITTED] T8515.015
    
    [GRAPHIC] [TIFF OMITTED] T8515.016
    
    [GRAPHIC] [TIFF OMITTED] T8515.017
    
    [GRAPHIC] [TIFF OMITTED] T8515.018
    
    [GRAPHIC] [TIFF OMITTED] T8515.019
    
    [GRAPHIC] [TIFF OMITTED] T8515.020
    
    Mrs. Chenoweth. Thank you, Ms. Platt.
    And the Chair will now recognize the members as they 
arrived, and we will alternate between each side of the dais, 
and we will begin with Congressman Hill for questions.
    Mr. Hill. Thank you, Madam Chairman, and I want to thank 
the panelists for being here and their testimony.
    Mr. Wasley, what is the total budget for the U.S. Forest 
Service for law enforcement?
    Mr. Wasley. This year, it is approximately $66 million.
    Mr. Hill. Sixty-six million?
    Mr. Wasley. Approximately.
    Mr. Hill. And about $6 million of that goes to local law 
enforcement under cooperative agreements? Is that what your 
testimony says?
    Mr. Wasley. That is correct.
    Mr. Hill. And that is 530 agreements?
    Mr. Wasley. Plus another 163 drug agreements. We have 
cooperative patrol agreements and drug agreements.
    Mr. Hill. So, it is $10,000 or less per cooperative 
agreement that goes to local law enforcement?
    Mr. Wasley. On the average, but you should understand that 
the range is much greater than that. It could be a couple of 
hundred to----
    Mr. Hill. What is the highest, the largest sum?
    Mr. Wasley. I don't really have that information. I think 
it is somewhere around $50,000 probably.
    Mr. Hill. Fifty thousand? And where is that?
    Mr. Wasley. I couldn't tell you. I don't know.
    Mr. Hill. How many people are employed in law enforcement 
within the U.S. Forest Service?
    Mr. Wasley. Approximately 600.
    Mr. Hill. And why would the Forest Service want to directly 
employ people rather than contract with local law enforcement 
folks for the general law enforcement needs on the force?
    Mr. Wasley. The first reason would have to do with 
jurisdiction. Not all law enforcement would be empowered to 
enforce Federal laws on National Forest System lands; that is 
first.
    Mr. Hill. But they could be.
    Mr. Wasley. They could be, of course, but at present, they 
are not.
    Mr. Hill. There is nothing in Federal law that prohibits a 
local law enforcement official from being authorized to enforce 
Federal law, is there?
    Mr. Wasley. I am not sure if that is correct or not. It may 
take an act of Congress to empower them to enforce Federal 
laws.
    Mr. Hill. Okay. I am sorry, I interrupted you. You were----
    Mr. Wasley. The other thing--there is a myriad of other 
reasons having to do with Federal law enforcement on National 
Forest System lands. Standardized training, for example, 
standardized equipment, funding, mobility between forests, 
jurisdictional disputes are almost non-existent. For example, 
if you had local law enforcement on one forest serving under 
certain county guidelines, they may not be empowered to go into 
the next county, much less the next State, to assist other 
Forest Service employees in another State on another forest.
    Mr. Hill. You have heard testimony here about terrorist 
organizations, and you are aware of those organizations, I am 
sure.
    Mr. Wasley. Yes.
    Mr. Hill. Does the Forest Service have a specific strategy 
for identifying members of these groups and investigating them 
and prosecuting them?
    Mr. Wasley. Our strategy is simple: we recognize the FBI as 
the lead investigative agency in this matter. We collect 
information through various means and furnish the FBI this 
information.
    Mr. Hill. So, your work in dealing with these groups is 
strictly investigatory work?
    Mr. Wasley. I wouldn't say investigatory. I would say it is 
more of a collection at this point.
    Mr. Hill. You mean that that is less than investigation or 
more than investigation?
    Mr. Wasley. I say that it is less than investigation on 
some areas. It is relatively simple to collect information. It 
may be as simple as noting a license plate numbers and then 
forwarding them on. Investigation might imply collecting the 
license plate numbers, running the Department of Motor Vehicle 
checks, doing criminal checks of the owners, and so on.
    Mr. Hill. You hear Mr. Hairston's testimony--is it 
Hairston?
    Mr. Hairston. Yes, sir.
    Mr. Hill. [continuing] with respect to the problem that he 
experienced in trying to pursue people who vandalized 
equipment. What do you say to that. I mean, would you say that 
you don't have adequate resources to do that to cooperate with 
local law--what created that circumstance, would you say?
    Mr. Wasley. I would say, first of all, we have limited 
resources. As you well know, we are spread over 192 million 
acres with only 600 people. We have limited budget, limited 
staffing. That said, in Mr. Hairston's case, as I am informed, 
these issues were handled at a local level. I will tell this 
Committee that I made no decisions on the deployment of persons 
at Cove Mallard at all. It did not come to my level, because 
the local people felt there was no need to elevate it to my 
level.
    Mr. Hill. That is a little bit in conflict, I think, Mr. 
Hairston, with your testimony, is it?
    Mr. Hairston. Yes, sir, in the fact that we were always 
told that the decisions were coming from much higher above, and 
the response time was just extremely slow.
    Mr. Hill. That contrasted with local law enforcement where 
the circumstances were different?
    Mr. Hairston. Yes, sir. Local law enforcement were very 
quick to respond. They had officers within the area and would 
many times be there within the hour on a call. We have several 
cases where we waited over six hours with a full crew of 
people, road building employees, to go to work and couldn't get 
to work, because activists were chained to a gate or buried in 
a roadway.
    Mr. Hill. Mr. Walsey, you said earlier that you were not 
aware of whether or not you could delegate the authority to 
local law enforcement to enforce the Federal law. If you don't 
have the ability to do that, would you support legislation that 
would allow you to do that?
    Mr. Wasley. I would have to think about that. You have 
caught me flat-footed.
    Mr. Hill. What would your objections be? I mean, if it 
broadened your authority and made it easier to enforce the laws 
in the national forests, why would you oppose--can you think of 
any reason, at this point, why you would oppose that?
    Mr. Wasley. I am not saying I would oppose it; I am saying 
I would need more time to think about it.
    Mr. Hill. Okay, thank you.
    Thank all the panelists, and thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    The Chair would oppose that, though, because I think, Mr. 
Wasley, you know that the county sheriffs, under State law, 
have all the authority to provide law enforcement for gang 
activities, for thefts, and even drug activities so long as it 
is grown within the State boundaries. However, there is ongoing 
cooperative agreements regarding the growing of drugs and 
marijuana. But I would detect that is why you are hesitant to 
answer Mr. Hill, because the county sheriffs do have the 
authority to enforce the law within their counties. Isn't that 
true?
    Mr. Wasley. Certainly, they have the authority to enforce 
all State laws and no doubt city ordinances and county 
ordinances. I question whether or not they can enforce all 
Federal laws particularly the Federal regulations under which 
we operate as promulgated by the Secretary of Agriculture. I am 
not sure they can enforce those statutes as it currently 
exists.
    Mrs. Chenoweth. Most activity regarding theft and gang 
related activities and abuse of property, contract law can be 
carried out. That kind of protection can be carried out by the 
local country sheriff. Isn't that correct?
    Mr. Wasley. That is correct, and most often is.
    Mrs. Chenoweth. Good. The Chair now recognizes Mr. Mark 
Udall for questions.
    Mr. Udall of Colorado. Thank you, Madam Chair. I wanted to 
welcome the panel today.
    I had a question for Director Wasley. As you know, I am 
from Colorado and have watched with great interest the arson in 
the Vail area. I would like to hear an update, at this point, 
as to where that investigation stands.
    Mr. Wasley. I am not begging the question when I say the 
FBI is the lead investigative agency on that. The Forest 
Service is playing a supporting role like we do in most 
investigations that we have with other Federal agencies. They 
rely on us for topographical, geographical, and local 
knowledge, but they are in fact the primary investigative 
agency. So, I don't have an update on that at this time.
    Mr. Udall of Colorado. So, I need to find out where the FBI 
is testifying, and I can maybe get some answers from them.
    [Laughter.]
    Mr. Wasley. That is right.
    Mr. Udall of Colorado. Let me move to another topic. I have 
the impression in Colorado that one of the major law 
enforcement challenges facing the Forest Service is 
unauthorized use of off-road vehicles in sensitive areas. Would 
you agree, and would you elaborate a little bit on that if you 
have a position?
    Mr. Wasley. Yes, off-road vehicles represent a tremendous 
challenge to the law enforcement. As you know, they create 
tremendous resource damage. I was only recently on the Uwharrie 
National Forest in North Carolina that has but 16 miles of 
roads, and I saw first-hand the damage that off-road vehicles 
do. They compress the ground so nothing can grow; they create 
mud bogs; they create damage to streams; it is a tremendous 
problem for law enforcement. We tried to combat this type of 
problem, of course, by engineering roads and trails to keep the 
four-wheelers or the two-wheelers on those roads. We try to 
educate people on the roads that are available, and if all else 
fails, we write tickets.
    Mr. Udall of Colorado. I would certainly lend my emphasis 
to the effort to educate people. I think everybody on the 
Committee would agree that there are some good efforts going on 
in the off-road use community, but there are still some pretty 
bad actors out there that have a very negative impact on the 
resource.
    Let me ask you another question. Again, in Colorado, we 
have got enormous cultural and archeological resources on 
public lands, and they are becoming more and more a part of our 
economy, frankly; people come to see those cultural and 
archeological treasures. I am concerned we are not providing 
you with enough resources to manage those treasures. Do you 
care to comment on that and whether you need additional help in 
that regard?
    Mr. Wasley. I would like to explain that one of our four 
investigational priorities, certainly, is the Archeological 
Resource Protection Act--we call it ARPA. Along with cannabis 
eradication, timber theft, and wild land arson, those are the 
four major investigational areas we have, and of course we 
could use more assistance there. I would point out that last 
year, members of the Forest Service made the largest ARPA case, 
I believe, in United States history in--I believe it was in 
Utah, and wherein we brought a series of charges against some 
individuals there for desecration of sites and actual theft 
from archeological sites. It remains a top investigational 
priority for us.
    Mr. Udall of Colorado. Were these so-called pot hunters 
that you were able to apprehend or do you know the particulars 
of that case?
    Mr. Wasley. I don't recall the particulars of that case, 
but, generally, a lot of folks tend to think that these are 
just minor thefts with people with shovels, but sometimes they 
have employed backhoes, dynamite, blasting. In this case in 
Utah, if memory serves, they actually desecrated a cave, which 
was a cultural site for some Native Americans.
    Mr. Udall of Colorado. Let me move to timber theft 
enforcement. I have run across some interesting documents that 
had talked about this being a significant problem. Chief 
Robertson back in the eighties had suggested that financial 
impacts to all of us, to the taxpayers, range, perhaps, between 
$10 million and $100 million. How significant a problem is 
this, and what kinds of methods do people and corporations, in 
some cases, use to literally steal trees?
    Mr. Wasley. It is a large problem, the extent of which is 
almost impossible to determine. One of the reasons that it is 
difficult to determine the nature of the problem or the extent 
of the problem is the fact that Forest Service is shrinking in 
size. Several years ago, we had 40,000 employees; now we have 
in the low thirties. That gives us many, many fewer eyes and 
ears in the forest to look for these illegal cuts of timber. We 
have less people out there seeing people performing illegal 
activities, hence, less comes to us.
    I would also point out that there is less timber being cut. 
Only a few years ago, we cut 11 billion board feet of timber; 
now, we cut 2 billion board feet of timber or a little over 2 
billion board feet. The simple amount--reduction in amount 
would thereby shrink the universe of criminality. Certain types 
of timber theft would be the shifting of boundary lines and 
stake-out lines; delineating the size of the timber cut--move 
it out 100 yards, suddenly you have a large timber theft with 
the simple moving of boundary lines; scaling problems; 
unauthorized cuts, the whole myriad of things, plus contract 
fraud.
    Mr. Udall of Colorado. Was this your number one priority, a 
top priority or in your top three? I hear you say you don't 
maybe have all the resources you need to handle this problem.
    Mr. Wasley. I would say it is in the top four.
    Mr. Udall of Colorado. Top four? Losses from timber theft--
do you account for those in the receipts from timber sales? How 
does this show up on, if you will, the taxpayers' balance 
sheet?
    Mr. Wasley. There again, it is very difficult to determine 
actually the amount of loss for the reasons I have stated.
    Mr. Udall of Colorado. So, you can't even determine, really 
the losses so that you can then quantify----
    Mr. Wasley. We are working on--constantly working on 
methods to improve our timber theft investigational capacities 
or capabilities. Right now, I cannot give you a definitive 
answer on the extent of the loss.
    Mr. Udall of Colorado. One last question on another topic. 
I know there are concerns expressed here about so-called eco-
terrorists, but I know that on the other side of the equation 
some Federal employees--Forest Service people, BLM employees--
have been intimidated, been harassed, and in some cases 
violence has been directed towards them. What is the status of 
your investigations into those situations where public 
employees have been subject to that kind of treatment?
    Mr. Wasley. We have numerous attacks against our own. I 
believe the year was 1997--the last year that I have figures 
for--I believe there was 355 assaults against Forest Service 
employees. They run the entire gamut of verbal assaults, to 
physical assaults, to threats, intimidations, and on and on, to 
actually a kidnap and a rape.
    Mr. Udall of Colorado. Thank you very much. Thank you, 
Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    The Chair now recognizes Mr. Sherwood for questions.
    Mr. Sherwood. Thank you, Madam Chairman.
    Mr. Wasley, I understand the educational mission and that 
the FBI is in charge of your investigative, even though I guess 
your title is law enforcement and investigations, but I would 
like to ask--and I think you said your budget was $600 million?
    Mr. Wasley. Sixty-six million.
    Mr. Sherwood. Sixty-six million, thank you; that is quite 
an error on my part. Thank you for straightening me out.
    Mr. Wasley. I wish is it was $600 million.
    Mr. Sherwood. I mean, that is a typical Washingtonese 
there.
    [Laughter.]
    Did you pay close attention to Mr. Hairston's testimony? Do 
you have anything that you would like to question in his 
testimony?
    Mr. Wasley. I think Mr. Hairston has some valid points. I 
think that it is a matter of perspective and, perhaps, a matter 
of us communicating to him better the way that we work. I was 
struck with the fact that there was a six-hour delay in us 
arriving at a particular scene.
    Mr. Sherwood. I was very struck by that; that is where I am 
going.
    Mr. Wasley. Right; I will head you off. We have 155 
national forests that we patrol and police, and for us to 
collect personnel to focus on a particular area, like Cove 
Mallard, it takes us a while to get there. I am begging the 
question a little bit, but for us to mobilize our forces, 
sometimes we have to bring folks in from a substantial ways 
out.
    Mr. Sherwood. Well, sir, I think you are begging that 
question quite a bit. After it happened the first time, I see 
no reasonable explanation that weren't ready for them the next 
time. I mean, this man had a legitimate job to do on a 
legitimate timber road building, and his people--the way it 
sounds to me--not only were intimidated and harassed but put in 
danger, and the whole project was endangered, and if you are 
the head of that organization, you have a $66 million budget 
and all those employees, coming to this thing pretty new, it 
sounds to me like your agency didn't want to do much about 
that.
    Mr. Wasley. That is not my impression nor my direction to 
any of the folks who work for me.
    Mr. Sherwood. Well, how do you explain, then, that after 
this happened the first day, you weren't there with the 
manpower and the firepower to keep it from happening again?
    Mr. Wasley. I would point out that we made 123 arrests 
there, and they had 262 charges filed in Federal court along 
with over 20 cases filed in State court for arrests and 
detention and tickets.
    Mr. Sherwood. Over what period of time?
    Mr. Wasley. That would be over a four and a half-year 
period--five-year period.
    Mr. Sherwood. So, apparently, nobody got them put away very 
well.
    Mr. Wasley. The process, as you know, is multi-staged. It 
is easy to allege; it is more difficult to investigate; it is 
more prosecute; to convict is yet another area, and then to 
sentence is in the purview of the courts.
    Mr. Sherwood. Yes, I understand that, but I would assume 
your officers are pretty good witnesses. If they were there and 
they saw what was going on, I would assume that they would be 
pretty good witnesses in court.
    Mr. Wasley. I am sure my officers were very good witnesses 
in court. That doesn't always carry the day in court, 
unfortunately.
    Mr. Sherwood. Do you feel that this is going to be a 
continuing problem?
    Mr. Wasley. I think that timber protests will be a 
continuing problem, yes.
    Mr. Sherwood. Well, do you feel that you will be able to 
handle them?
    Mr. Wasley. We have very limited resources.
    Mr. Sherwood. Sixty-six million dollars?
    Mr. Wasley. One hundred and fifty-five national forests.
    Mr. Sherwood. But it doesn't seem to happen too many 
places.
    Mr. Wasley. We had over 700 arrests in Oregon.
    Mr. Sherwood. What do you suggest, sir?
    Mr. Wasley. I suggest that we continue to cooperate with 
our local cooperators and vigorously enforce the law.
    Mr. Sherwood. Do you think that will be more successful in 
the future than it has been in the past?
    Mr. Wasley. I don't know.
    Mr. Sherwood. Because if I read this testimony and listen 
carefully, it was Mr. Hairston's thought that we were doing 
better when we had local enforcement and slower when we got 
Federal enforcement. I wasn't there; I am just listening to the 
testimony.
    Mr. Wasley. I think that is Mr. Hairston's perception. I 
don't think it is correct.
    Mr. Sherwood. So, you don't think that it took six hours to 
respond?
    Mr. Wasley. Oh, it may well have taken six hours to 
respond.
    Mr. Sherwood. Well, then----
    Mr. Wasley. In one instance.
    Mr. Sherwood. In one instance but not as a matter of 
course?
    Mr. Wasley. I wouldn't know. Perhaps, not; perhaps--we were 
all on the scene for days on end.
    Mr. Sherwood. Well, why wouldn't you know? You are the 
Director of that organization.
    Mr. Wasley. Some things I don't have at my fingertips. I 
will have to research it, and get back to you, if you wish.
    Mr. Sherwood. But you did know what this was to be about 
today?
    Mr. Wasley. Oh, yes, I did.
    Mr. Sherwood. Thank you very much.
    Mrs. Chenoweth. Mr. Wasley, I just wanted a point of 
clarification following up on the previous line of questioning.
    There were 700 arrests in Oregon over what period of time?
    Mr. Wasley. Excuse me. I believe it was 1996.
    Mrs. Chenoweth. In one year, there were 700 arrests by----
    Mr. Wasley. Approximately.
    Mrs. Chenoweth. [continuing] Federal?
    Mr. Wasley. By Forest Service working in conjunction with 
local cooperators.
    Mrs. Chenoweth. Okay. Could you provide the Committee with 
the documentation, please?
    Mr. Wasley. I am sorry. I was just informed it was since 
1992--since 1992, we have made 700 arrests in Oregon, and I 
will be happy to provide you with that documentation.
    Mrs. Chenoweth. Okay. I appreciate that. But last year, you 
were appropriated $66 million.
    Mr. Wasley. Approximately.
    Mrs. Chenoweth. Yes, okay. Thank you.
    The Chair now recognizes Grace Napolitano for questions.
    Ms. Napolitano. Thank you, Madam Chair.
    Listening here to--and I came in a little late, so I didn't 
hear all the testimony--but one of the things that I am hearing 
is that there is an issue with vandalism and theft of timber, 
et cetera, et cetera. Is this problem getting worse?
    Mr. Wasley. Oh, I think so. If you look at the simple 
number of visitors to the national forests, which has gone 
from, several years ago, maybe 150 million to over 1 billion 
visitors, there is going to be a certain amount of criminality 
that follows that visitor usage.
    Ms. Napolitano. Okay. Then, I guess it leads into my next 
question which is, number one, what would be the solution? 
Certainly, you have gone from over 40,000 employees to the low 
thirties, you stated, and what is the reason for this? Is it 
the budgeting? Is it people not wanting to go into forestry 
service? What is that reason?
    Mr. Wasley. I believe, in my estimation, it is budget cuts. 
We have had to shrink the size to stay within budget.
    Ms. Napolitano. At the time you had 40,000 employees--and I 
understand there is not that much of a relevance--but what was 
your budget when you had 40,000 employees?
    Mr. Wasley. I really don't know, because my organization 
only took its current form in 1994, and, at that time, I think 
we had less than 40,000. So, my budget is pretty much flat for 
the last several years.
    Ms. Napolitano. Do you have a lot of openings right now for 
forestry? Is there a need for additional personnel?
    Mr. Wasley. I am going to speak only of law enforcement 
investigations, and we have many vacancies.
    Ms. Napolitano. You have many vacancies, okay.
    Mr. Wasley. That is correct.
    Ms. Napolitano. I was reading in some of the information 
that we were given that you have a lot of citizen complaints 
that are being filed against the Forest Service, and I am 
assuming it refers to all of Forestry, not necessarily the 
investigative area alone. Can you explain what the nature of 
those complaints might be, in general?
    Mr. Wasley. There again, the complaints range anywhere from 
not being treated with the due respect in a campground, for 
example, to allegations of theft, of mismanagement, of contract 
fraud, an entire range; everywhere from discourtesy to criminal 
violation.
    Ms. Napolitano. And in these criminal violations, has there 
been a follow-up to make sure that due process is followed and 
those people are punished?
    Mr. Wasley. Absolutely correct. We work in conjunction with 
the Office of the Inspector General in the Agriculture 
Department who has primary oversight responsibility for these 
investigations. Generally speaking, the Inspector General will 
refer those back to the Forest Service law enforcement 
investigations for follow-up.
    Ms. Napolitano. Is restitution required?
    Mr. Wasley. It depends on the court; that is the 
prerogative of the court.
    Ms. Napolitano. I see. Then, part of what I am gathering is 
that you have various problems--some being budget, some being 
staffing, and some, of course, the increase in your visitors to 
the national forests. What would you suggest might be an 
approach that might address being able to handle the multitude 
of visitors as well as having a trained and effective 
workforce?
    Mr. Wasley. I think that clearly budgetary increases would 
help an awful lot.
    Ms. Napolitano. It isn't always the budget.
    Mr. Wasley. No, that is true. With budgetary increases, 
however, I could give more money to local cooperators.
    Ms. Napolitano. But are you making any more money from 
these visitors in the certain areas where you have charges to 
access?
    Mr. Wasley. There is a program now called the Fee 
Demonstration Project, which I am not familiar how much it is 
making. It is clearly out of my area of expertise. I really 
don't know if----
    Ms. Napolitano. Could you get us that information, because 
we need to be able to understand the correlation between being 
able to provide the service and the cost to the taxpayer? 
Certainly, the rest of the taxpayers don't want to bear the 
burden for somebody else's recreation, and if some of those 
people that are abusing the land--those four-by-four vehicle 
users or two-wheelers--then, certainly, there may be something 
that we may be able to follow through, and that is if education 
doesn't work; if providing them with upfront information about 
them abusing the land and being able to have them pay for some 
of the repair of the some of the damage that the organizations 
may cause, because some of those organizations are doing their 
work for recreation, although I don't want to see that, but 
maybe that might help them respect the land and not cause the 
degradation of the forests.
    Mr. Wasley. Okay.
    Ms. Napolitano. Thank you.
    Mrs. Chenoweth. Thank you, Ms. Napolitano.
    The Chair now recognizes Mr. Peterson for questions.
    Mr. Peterson. I thank the Chair. Welcome to the panelists. 
I missed some of the testimony, but I have been trying to catch 
up.
    Mr. Walsey, you stated you recognized the FBI as your lead 
agency. Why the FBI?
    Mr. Wasley. I recognize the FBI as the lead agency in 
certain investigational areas. Certainly, the FBI would not 
necessarily have the lead in timber theft investigations, ARPA 
investigations, marijuana, cannabis eradication, or wild land 
fire, arson, investigations. They would be the lead 
investigative agency in echo-terrorism or domestic terrorism.
    Mr. Peterson. Okay. How do you involve them?
    Mr. Wasley. Generally, they would involve themselves.
    Mr. Peterson. But they are not out on the force.
    Mr. Wasley. Correct. They would become aware of an incident 
either directly from us--we may well give them a copy of our 
report, say; make a verbal report to them that this or that was 
happening on a national forest, and they would make a 
determination to enter the investigation.
    Mr. Peterson. Okay, so you have a problem going on. How far 
up your ladder does it go before it goes to the FBI?
    Mr. Wasley. It could go right from the local most basic 
level to the FBI.
    Mr. Peterson. They could make that call?
    Mr. Wasley. Absolutely.
    Mr. Peterson. Okay. And you mentioned that the Cove Mallard 
situation did not reach your level, so somebody locally could 
have involved the FBI there?
    Mr. Wasley. That is correct. Most likely--to specify, it 
would no doubt be a special agent working for me--one of 137 
special agents I have, which would be on site at Cove Mallard 
or close by.
    Mr. Peterson. Do you utilize State police or local sheriff 
at all? Local police?
    Mr. Wasley. Oh, yes.
    Mr. Peterson. You do? When do you bring them in?
    Mr. Wasley. Well, as the chairman stated, they have primary 
jurisdiction over State laws on national forests. We are in 
close contact with most every county sheriff that has anything 
at all to do with the National Forest System.
    Mr. Peterson. I guess, my experience from the State level, 
I know there is nothing that I think that is more important 
than catching drug dealers especially to protect our kids, and 
yet I know that some attorney generals work with the State 
police and local police. Some have their own--some State police 
will work with local police; some don't. I mean, it is not as 
good out there as we would like it to be in cooperation, 
because everybody wants to take credit for the success, and, 
unfortunately, that is the downfall.
    It just seems to me that an agency like yours--that I am 
very supportive of--needs to be the person that maybe 
patrolling your own grounds, but when there is very serious 
trouble, it really seems to me that there needs to be a 
network, depending on what it is, that is instantly involved, 
and it seems to me that local agencies have the knowledge of 
who the local problems are. Now, if it is not a local problem 
and it is somebody that is being shipped in to cause a problem, 
that is a different ballgame, but it seems to me there is 
something loose in this network that doesn't work like it 
should. Would you agree with that?
    Mr. Wasley. I think that is a perception. I am 31 years in 
this line of work, and I was a local policeman. I spent 20 
years with the Secret Service and with Customs and overseas and 
all over the place. So, I have a lot of different perspectives 
on this, and, believe me, I speak police. I understand that 
language really well. I have traveled throughout the United 
States--all 50 States--and it has been my experience, the vast 
majority of local cooperatives that we have are on board with 
us.
    Your points are well taken, but you have to also understand 
that my folks are out there. Generally, they have lived in 
those communities for years and years. They are probably more 
adept at topographical and geographical knowledge of the 
National Forest System than the local sheriffs are.
    And I might also point out that very many sheriff's offices 
are less staffed than we are, or are more thinly staffed than 
we are. They are primarily responsible to their population 
centers, which are generally not on the national forests; there 
is the problem.
    Mr. Peterson. Well, I think rural America is on the short 
end all the way around.
    Mr. Wasley. I agree.
    Mr. Peterson. As activity comes to rural America, we need 
to not be on the short end.
    Mr. Wasley. I agree.
    Mr. Peterson. And if you have a cooperative effort where 
you don't have to have this--like, if we could triple your 
base--that is a lot of money--but we don't need to triple your 
number of people everyday; we need to triple it when there is 
serious problems, but that is why State police, sheriffs, local 
police, all the other enforcement units joining hands, that is 
how we----
    Mr. Wasley. Let me give you an example of a recent success 
that we have had. An unfortunate situation occurred in 
California in Stanislaus National Forest where three young 
people were murdered. Our officers were some of the first on 
the scene on that tragedy. We stabilized the scene until the 
Stanislaus County Sheriff got there. We handed off the 
investigation to them. They worked it as well as they could. 
When it came out of their local area, they called in the FBI. 
Pretty seamless--granted, we don't have everyday seamless 
operations without grief and headache, but this one, it worked 
well, and I would submit to this Committee that, far and away, 
the vast majority of relationships we have are sound and are 
working well.
    Mr. Peterson. When you have an incident, what is your means 
of communication if you need support today; not tomorrow, not 
next week, but today? How do you bring in sheriffs, State 
police? You have an incident that is potentially serious, how 
do you communicate? What kind of a system do you have?
    Mr. Wasley. It really depends on the extent of the 
emergency. We can implement what we call the incident command 
system, which is a command post system where we will go on all 
the local frequencies, and we generally have cooperating 
agreements with the local sheriffs that would encompass just 
such an emergency.
    Mr. Peterson. Okay, I guess my time is up. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Peterson.
    Mr. Tom Udall is recognized for questions.
    Mr. Udall of New Mexico. Thank you, Madam Chair. Thank you, 
members of the panel for being here with us today.
    Mr. Wasley, I would just like to ask you a couple of 
questions about the timber theft investigation branch. My 
understanding is that in 1991, this Timber Theft Task Force was 
created in response to two alleged commercial timber theft 
cases with multimillion dollar losses, and, in fact, there were 
some big recoveries in 1993 following on the heels of that from 
the, I guess, Columbia River Scaling Bureau and the Thomas 
Creek Lumber and Log Company; one of them paying $1.5 million, 
one of them paying $50,000 penalty and then a civil assessment 
of $1.7 million. And it looked like the agency was moving very 
aggressively against timber theft--and you are nodding your 
head that apparently they were.
    Then it seems like the Forest Service did a turnabout and 
Jack Ward Thomas in 1995 abolished--the Forest Service Chief 
abolished this right when there were three big cases under 
investigation. I am wondering--what is the code name for those 
cases--Model T, Rodeo, Shuffle--are those cases dormant? I 
mean, where are they? Have they been closed?
    I understand you have a Freedom of Information Act request 
pending, and it seems to me that looking at the dollars that 
have come in that we have reached the end of this, and we 
shouldn't expect to see any more cases. Where are we on that?
    Mr. Wasley. If the question is about those three particular 
cases? I am sorry, I----
    Mr. Udall of New Mexico. Well, the question goes to the 
heart of are you aggressively pursuing commercial timber theft?
    Mr. Wasley. Again, I am a policeman, and I love to make 
cases like that. I can assure you and the rest of the members 
of the Committee here that as a criminal investigator, that is 
what you pay me to do is to make those kind of cases. 
Specifically regarding the Timber Theft Task Force, that was a 
group that was given a lifespan which expired before I took 
over. I will tell you this: that I looked at the results of the 
task force. I would have abolished it myself, and I was an 
outsider coming in just looking at results. I have worked with 
task forces throughout my 31 years. I didn't see it as worthy 
as continued to be staffed.
    Mr. Udall of New Mexico. Now, what has happened to those 
cases that the task force was handling? Clearly, if they were, 
as you say, cases of merit, cases that should have proceeded, 
then we should go forward with those, shouldn't we?
    Mr. Wasley. Absolutely. If there is any----
    Mr. Udall of New Mexico. What is the status of those cases?
    Mr. Wasley. Well, the first one--I was just handed this--
the FBI looked at the Rodeo case, and it was closed, and the 
FBI said there was nothing more to go on this, from what I am 
told.
    Mr. Udall of New Mexico. Tell me--you have primary 
jurisdiction in the case--why does the FBI look at the case and 
close the case?
    Mr. Wasley. We wanted to involve them for a lot of reasons. 
Again, this was all happening literally within my first weeks 
in office. I think we turned to the FBI because of their 
resources in the Portland area and perhaps another 
jurisdictional area. I would rather research this and get back 
to you on this for the exact reasons, because I just don't 
know.
    Mr. Udall of New Mexico. Okay, so the one case is closed--
what was it, Rodeo, you said?
    Mr. Wasley. Rodeo.
    Mr. Udall of New Mexico. The Rodeo is closed. How about the 
other two?
    Mr. Wasley. The Model T and the--what is it, the Shuffle or 
Shuttle?
    Mr. Udall of New Mexico. Yes, Shuffle.
    Mr. Wasley. I don't know. I don't have any information. I 
will have to get back to you on those.
    Mr. Udall of New Mexico. Okay, but you are telling me that 
you are in the position and since you have held this position, 
you are aggressively pursuing commercial timber theft?
    Mr. Wasley. Yes, and what I have done is rather than have a 
centralized task force operating out of some particular area--
which may well have served a purpose for its time--I have 
charged each special agent in charge in all the nine regions 
who work for me to aggressively pursue timber cases, and, 
clearly, I monitor their results. We have developed training 
modules; we have developed methods of working this type of 
case, but the responsibility or the accountability is at the 
special agent, at the regional level.
    Mr. Udall of New Mexico. Has the number of people since the 
task force was abolished that are pursuing these kinds of 
cases, have those numbers of people gone down?
    Mr. Wasley. Not necessarily, because----
    Mr. Udall of New Mexico. So, you are using the same number 
of people, roughly, on commercial timber theft cases like this?
    Mr. Wasley. There again, if you consider we have 137 
investigators, each one of them is tasked with our 4 
investigational priorities as are all the uniformed folks.
    Mr. Udall of New Mexico. The thing I am wondering about, I 
have got a chart up here that shows in 1993, that over $3.3 
million were recovered as a part of this task force effort, and 
then in 1995, it dropped off to $363,000 and then in 1997, just 
$5,000, and in 1998, it is back up to $300,000. I mean, it 
looks like this task force was doing a very good job, and your 
testimony is in conflict with that. I am wondering how is that 
to be explained?
    Mr. Wasley. To me, it looks like early success is based on 
fertile ground, if you will, and then our training modules take 
over, and the successes trail off as does the timber harvest. I 
think you will find they are probably parallel decreases.
    Mr. Udall of New Mexico. So, you can assure this Committee 
that all of the--there is a lot surrounding this, as you well 
know. I mean, there are whistleblowers that are out there that 
have been moved from the task force into other areas, and they 
have made complaints, and I don't know whether or not there are 
lawsuits going on there. There have been suggestions by the 
government accountability project and others that you are 
lessening enforcement on commercial dealers and commercial 
operators as opposed to small people that are dealing in 
firewood. Can you assure the Committee that that is not 
happening?
    Mr. Wasley. I can assure this Committee that I take my 
responsibility as head of the Forest Service Law Enforcement 
Program--that timber theft is a priority, and I want to make as 
many timber theft cases as possible.
    Mr. Udall of New Mexico. And commercial timber theft is, 
you said, a number four priority?
    Mr. Wasley. I said it is one of four.
    Mr. Udall of New Mexico. One of four. But it is a top 
priority?
    Mr. Wasley. Absolutely.
    Mr. Udall of New Mexico. Okay.
    Mr. Wasley. And I would add to that, what we call now would 
be timber theft and forest product theft, because not only is 
timber being stolen from the Forest Service, all sorts of other 
things--maybe echinecia and pine needles or whatever is growing 
out there, mushrooms--all these things are subject to theft. 
They are all part of our investigational priorities.
    Mr. Udall of New Mexico. Have you been getting thorough 
cooperation from the--is the U.S. Attorney's Office the ones 
that prosecute these cases?
    Mr. Wasley. Correct.
    Mr. Udall of New Mexico. And have they been cooperating 
with you? I mean, there isn't any problem there?
    Mr. Wasley. The United States Attorney's Office has a very 
full slate, and sometimes it is very difficult to get property 
claims on a docket, on a prosecutorial docket, when they have 
murder cases.
    Mr. Udall of New Mexico. Yes, well, I was a Federal 
prosecutor at one point in my career, so I understand that from 
the variety of cases. And none of this is meant to cause an 
aspersion on you, but I wanted to try to clear up this cloud 
that is out there. I mean, if you look at some of these 
pamphlets and things, it would give the impression that there 
is some real problems in terms of getting after commercial 
timber theft, and I hope you will continue to pursue that. 
Thank you very much.
    Mr. Wasley. We have had some recent successes. If the 
Committee would like a list of these recent successes, I would 
be happy to provide them.
    Mr. Udall of New Mexico. Sure. Yes, please. Can he have 
permission, Madam Chair, unanimous consent to supplement the 
record in that respect?
    Mrs. Chenoweth. Yes, I would be happy to receive your 
report. Thank you very much.
    Mr. Udall of New Mexico. Thank you for being so gracious 
and letting me use a little extra time there, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    Mr. Hairston, I have some questions for you. Have you or 
any of your employees or any of the members of the community 
ever received any threats--individually or to your families--
from these Earth First protestors in your area?
    Mr. Hairston. Yes, ma'am, myself, personally, my employees; 
we have been verbally threatened. The protestors have made 
statements, ``We are going to find your house and burn it down. 
We are going to kill your family.'' They are quite adamant 
about these things, and they have went to the extent that they 
know who we are. They call you by a first name basis when you 
come out onto the projects.
    I also know of a case where one of the lead Forest Service 
law enforcement individuals was threatened with his life too, 
and after that happened, he eventually was reassigned and 
eventually retired. I don't know because of that, but I do know 
that he was threatened himself.
    Mrs. Chenoweth. Well, I assume you made an official report 
of these threats.
    Mr. Hairston. We always tell the Federal agents who are 
usually the ones on site about any of these type of threats we 
have, and usually the response is, ``Well, if we apprehend 
these people, then we will help you to pursue prosecution.''
    Mrs. Chenoweth. If who apprehends them? The county sheriff 
or the Federal law enforcement officers?
    Mr. Hairston. Yes, ma'am. If the Federal agents apprehend 
the tree sitters--that is usually who the threats are coming 
from--if those people are apprehended, they will then help us 
to pursue the prosecution of those individuals.
    Mrs. Chenoweth. Can you recall any specific situations that 
prompted the Forest Service law enforcement officials to be 
more aggressive in apprehending and arresting these folks?
    Mr. Hairston. Yes, ma'am. I have one particular case that 
happened last summer that is somewhat off-colored but 
entertaining. We had several tree sitters in the road right-of-
way and were having difficulty getting them to come down out of 
the trees, and we had many, many law enforcement people there. 
Nothing was happening, though. They were still being supplied 
by their cohorts; they were still getting food and water up 
their tree. What happened in this particular case was several 
Federal law enforcement officers were standing below a tree and 
one of the protestors urinated out of the tree onto the Federal 
officers, and I believe that enraged the officers so much that 
they put a 24-hour vigil on that tree; would not let any 
support people come to the tree and supply the protestor with 
food or water until he was forced to rappel down out of the 
tree, and then he was promptly arrested and hauled to jail. But 
the other protestors that were 200 yards in front of him and 
200 yards in back of him in trees were freely supplied. They 
weren't as aggressively watched, and they were able to 
eventually rappel out of their trees and escape without being 
arrested.
    Mrs. Chenoweth. So, they didn't apply the same enforcement 
to the other protestors.
    Mr. Hairston. In this case, no, they did not.
    Mrs. Chenoweth. Have Forest Service and local law 
enforcement officials ever been a hinderance to your company's 
contractual obligations in road building?
    Mr. Hairston. This last year, in particular, we were 
hindered by the Federal law enforcement in many cases. We had 
an excess of officers on site. There were protestors clearly 
violating the law, and they were not being arrested. As you 
know, these are small roads in the mountains that we are trying 
to build, and we would be having to deal with in excess of 10 
vehicles from Forest Service law enforcement, trying to work 
our road building equipment around their vehicles on a small, 
one-lane road. We had the law enforcement people several times 
halting our production for them to decide how they were going 
to deal with the protestors in the trees or on the ground, and 
we eventually got to the point where we asked the Forest 
Service law enforcement to either write us a written shut down 
or we were going to proceed with the road building. They never 
did write us a written shut down, the law enforcement.
    Mrs. Chenoweth. Was the county sheriff involved in any of 
the hindrances?
    Mr. Hairston. Not in these cases, he wasn't, ma'am. What 
Idaho County sheriffs have ran into so many times is these are 
Federal laws that the protestors are violating. They are 
violating an area closure law that was implemented by the 
district ranger or the forest supervisor or maintaining a 
structure on Federal land, and unless the protestors are 
vandalizing our equipment, a lot of times the county sheriff 
wasn't on site. He just couldn't, once again, afford to have 
deputies up there during all the protests, because it was a 
daily occurrence; every day we were battling this.
    Mrs. Chenoweth. I have seen pictures of equipment that has 
been used, and Mr. Christianson has supplied me with some of 
these pictures. Could you explain this picture? It shows about 
12 Forest Service people around a campfire in front of a big, 
huge tripod-type structure that they have established?
    [Picture.]
    Mr. Hairston. Yes, ma'am. Once again, we are waiting for 
the Federal law enforcement to take action to remove these 
protestors so that we can go to work. We are sitting here--
behind the man with the orange jacket, there is probably 15 
Highland employees waiting to go to work and trying to get to 
work, and this is what we ran into a great deal was once we 
finally got Federal law enforcement on site, they would take 
hours to decide how to try to remove these protestors or what 
course of action they were going to take.
    Mrs. Chenoweth. There is another picture that I have here 
with a bucket, it looks like, full of huge nails. Can you 
explain what these--looks like spikes?
    [Picture.]
    Mr. Hairston. Yes, ma'am, if I could get one more--I have a 
couple of representative spikes that are the typical items used 
by the Earth Firsters. What this picture is, is a----
    Mrs. Chenoweth. Now, how do they use them? Please explain 
for the Committee.
    Mr. Hairston. As you can see in the photo, there is a 
branch off a tree that have the spikes driven through it, and 
they will bury that in the roadway so that any rubber-tired 
vehicle, being it a support pick-up or a road grader, once they 
run over those spikes, then it has disabled that vehicle, and 
they will also drive the spikes into trees and put the spikes, 
themselves, just into the roadway to disable the vehicle, and 
it just becomes very dangerous. The roadways, themselves, are 
usually a 14- to 16-foot wide road, which, in many cases, is a 
very steep cut on the downhill side, and if you have a tire 
blowout when you are going along this road, many times it can 
be very serious.
    Mrs. Chenoweth. What happens when these spikes are driven 
into trees that are to be harvested?
    Mr. Hairston. It becomes very life-threatening for the 
timber faller. If he is sawing through one of these trees and 
doesn't know a spike is in it and his chain from his chainsaw 
hits it, it can shatter the chain, and a chainsaw usually runs 
at about 13,000 rpm, and it can severely cut or kill him. If it 
makes it past the timber faller, then it goes into a sawmill 
where the blades of the sawmill are extremely thin and fragile 
and when they hit a metal spike like this, they also will 
shatter, and there are more people there that can be injured.
    Mrs. Chenoweth. And, so then the chainsaw or the saws in 
the plainers or the mills act like shrapnel?
    Mr. Hairston. Yes, ma'am. The blades, themselves, break and 
act as a shrapnel that goes out and injures anyone near enough 
to get hit by that flying debris.
    Mrs. Chenoweth. Do you know, personally, of injuries that 
have occurred like that?
    Mr. Hairston. Yes, I have heard of several cases in 
sawmills where people have been injured by that. I know of 
cases where one of our sawers hit a spike. It broke the chain 
on the chainsaw. It did not injure him, but it did destroy the 
chain and several hours of lost production.
    Mrs. Chenoweth. Rpm's on those chainsaws, again, are how 
much?
    Mr. Hairston. Approximately 10,000 to 13,000 revolutions 
per minute.
    Mrs. Chenoweth. I have another picture here that shows a 
random stack of logs and a big pipe in the middle of the road. 
Would you please explain this?
    [Picture.]
    Mr. Hairston. Yes, this happens on a daily basis. When we 
leave the project in the evenings, many times the protestors 
are out there all night doing this type of vandalism. They will 
take the metal culvert that is stockpiled to be put in the 
road, and they will--first off, they will punch holes in that 
culvert with a pick or an axe just ruining the pipe, and then 
they will stack it up in these type of structures along with 
all the wooded debris that they have pulled off from the side 
of the road to make it impassible. Other acts they do are take 
these metal pipes and roll them down the hill so that we have 
to retrieve the pipes that are 100 or 200 feet over the bank. 
It takes several men and pieces of equipment to do. After the 
pipe is ruined, it takes a whole other shipment of pipe to come 
in to continue our road building.
    Mrs. Chenoweth. Is the Forest Service willing, in your 
contract, to pay you for these new culverts and the new labor 
that you have had to put in over and above the bid specs of 
plain old road building to retrieve culverts, to clean it up, 
to clean up the wood that is piled in the middle of your 
workplace?
    Mr. Hairston. No, they have not been, to date, and we have 
repeatedly asked for any type of help that we can get. We have 
asked for compensation for the destroyed culvert, and that 
falls in our--that tells us that falls in our area, because 
that was a stockpiled material, and it doesn't become 
possession of theirs until it is installed in the roadway.
    Mrs. Chenoweth. Has the Forest Service ever advised you on 
change orders in your contracts in order to provide for these 
additional costs?
    Mr. Hairston. I guess it wouldn't be so much of a change 
order as it would be--the way we have been informed, it would 
go under a claim situation against the contract, and we have 
filed those claims, and, to date, have been denied.
    Mrs. Chenoweth. Has the Forest Service ever offered to 
provide security, then, for equipment that you have had to 
stockpile on the job according to their bids on stacks?
    Mr. Hairston. No, they have not, and we have--this conflict 
has been going on since 1992 in our particular case on several 
different road projects. Every year, before we go out onto the 
project, we usually have a meeting with the Forest Service that 
involves law enforcement officers. They know this is happening; 
this isn't a secret. Every year, it has been getting worse and 
worse. We have repeatedly asked to have our equipment guarded 
when it is not in use or our staging areas--to have our diesel 
tanks and our stockpiled materials there, and we have always 
been denied that. They have never----
    Mrs. Chenoweth. Mrs. Platt, I wanted to ask you, how well 
is the Animal Enterprise Act working to protect you and your 
membership?
    Ms. Platt. Well, the Animal Enterprise Protection Act was 
passed several years ago in response to these sort of attacks 
on animal-based industries. It should probably be expanded to 
resource-based industries, because when people get attacked 
over saving trees or wild animals, it is just an extension of 
the same philosophy. We find it works very well in that there 
is a $10,000 trigger for involvement for the FBI which is 
reached very quickly on a farm or, say, a research facility 
that has just been bombed. So, the FBI gets involved very, very 
early in the investigation. However, on the ground, local law 
enforcement is very, very good, and often times the FBI 
involvement actually disrupts the local procedures, and real 
basic things, such as interviews with suspects, get forgotten 
as the FBI takes over the scene, and there is a little bit of 
chaos in the investigative arm.
    We also find the FBI is treating these incidents as 
individual acts of terrorism, but they don't look at it as a 
pattern of a movement. So, each individual act is treated 
within a territory of the FBI, and information does not cross 
quickly across State lines. The FBI is still working with paper 
in an antiquated system, while the opposition is working in an 
electronic age and passing information worldwide in seconds. 
So, we are always a day late, a dollar short.
    The FBI is limited by privacy concerns, and therefore 
cannot look at the atmosphere, general patterns, the 
information on private individuals. Industry has to supply that 
to them, so we are constantly monitoring the opposition and 
handing it to the FBI to get past privacy concerns. Whereas, if 
we simply looked instead at individual actions, if it was 
looked as a pattern of a terrorist, an international network, 
we could address it a lot better.
    Mrs. Chenoweth. I would like to work with you further on 
this, Ms. Platt.
    Ms. Platt. Thank you.
    Mrs. Chenoweth. And I just have one final question for Mr. 
Wasley. As you know, Mr. Hairston has a Freedom of Information 
Act request with your office. Will you please provide the 
Subcommittee with all relevant documents pertaining to his 
particular request by June 1, 1999?
    Mr. Wasley. I will.
    Mrs. Chenoweth. Thank you very much.
    Mrs. Chenoweth. I have other questions of all of the 
panelists, but I will submit them to you in writing. Should any 
of you wish to update or supplement your testimony, you have 10 
working days to do so, and we will submitting questions in 
writing right away.
    I want to thank the panelists for your patience. It has 
been a long panel--and hour and a half--and thank you again 
very much, and this panel is excused.
    The Chair will call the final panel now--Mr. Dale Anderson, 
president of the Pennsylvania Forest Industry Association, 
Ridgway, Pennsylvania; Ms. Sheila Keller, treasurer, Montana 
Women in Timber, Kalispell, Montana, and, Mr. Brett Johnson, of 
Forks, Washington. Two of the brightest members that we had on 
this Committee--Mr. Rick Hill and Mr. John Peterson--will be 
introducing two of the panel members, and so just as soon as 
they come up, I will recognize Mr. Hill for his introduction of 
Mr. Anderson--of Ms. Keller.
    Mr. Hill. Thank you, Madam Chairman. Madam Chairman, I am 
proud to introduce Sheila Keller from Kalispell, Montana, 
originally a native of Iowa; moved to Montana 13 years ago--
like most of us, weren't born there but got there as quick as 
she could. Her husband's family has been engaged in logging and 
farming in Montana for four generations. She and her husband 
own three log trucks. She has a degree of education from the 
University of Montana. I am pleased to welcome Ms. Keller.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    And the Chair now recognizes Mr. Peterson for his 
introduction.
    Mr. Peterson. It is a pleasure to introduce Dale Anderson, 
president of the Pennsylvania Forestry Association. We have 
worked together for many years on fighting for good management 
in the Allegheny National Forest and all of the high quality 
forest that surrounds it. Dale and I are very proud that the 
forest we speak of, the ANF and surrounding--I guess I could 
say--millions of acres, is probably the finest hardwood forest 
in America, one that came from about 100 years ago when a 
hemlock forest, a beach forest, was removed, and the good Lord 
gave us one of the finest forests. Of course, on Dale's card, 
he has the black cherry capital of the world, and there is a 
couple-county area where 50 percent of the veneer cherry in 
America comes from, and much of that is on the Allegheny 
National Forest also, but it is a very mature forest; it is a 
very high quality forest, and it is one that can be providing 
very high quality wood products to this country as long as we 
professionally manage it and treat it well, and I think the 
Forest Service has done a pretty good job of that, and that is 
why it is such a high quality forest today.
    And Dale wants to speak a little about the Endangered 
Species Act, the appeals process, and other management 
directions that are being taken and the impact on neighboring 
communities if some of the things that are happening continue. 
So, without any further ado, it is a pleasure to welcome Dale 
here to speak to us.
    Mrs. Chenoweth. Thank you very much, and thank you for 
sending these members back; I appreciate you.
    I would like for you to stand and take the oath, if you 
would. Raise your right hand to the square.
    [Witnesses sworn.]
    The Chair now recognizes Mr. Anderson for his statement.

 STATEMENT OF DALE E. ANDERSON, PRESIDENT, PENNSYLVANIA FOREST 
          INDUSTRY ASSOCIATION, RIDGWAY, PENNSYLVANIA

    Mr. Anderson. Thank you, Madam Chairman and Honorable John 
Peterson. It is a real pleasure to be here. I want you to know 
this wasn't part of my talk, but we do have extremists in our 
area that operate, and I will be glad to submit this to the 
Committee.
    My name is Dale Anderson, and I am president of the 
Pennsylvania Forest Industry Association. This is a grassroots 
organization of people that work in the forest industry and 
other citizens. We have been organized since 1963. I will 
testifying as the president of the Pennsylvania Forest Industry 
Association.
    The timber resources of our National Forest System, 
including the Allegheny National Forest are slowly and quietly 
deteriorating due to a lack of forest management. The present 
policies of the Forest Service contribute to the decline of the 
health of the forests, batter the rural communities, and 
contribute to worldwide ecologic problems by exporting our 
demands for forest products to other countries with low 
environmental priorities.
    My history with the Allegheny started with my high school 
days. I worked for a couple of years on the fire control team. 
Later, I worked on the Allegheny doing timber stand 
improvement. It was this experience that led me on to a degree 
in forestry from West Virginia University. The investments made 
in the sixties by the Forest Service to improve these timber 
stands are now becoming ripe. For us to disregard this 
investment is not fair to the people of this country.
    While attending college, I worked as a fire control aid on 
the St. Joe National Forest in your beautiful State of Idaho, 
Madam Chairman. I have fond memories of my summer out there. I 
have had experiences with and been an observer of the U.S. 
Forest Service in the East and in the West over a long period 
of time. Over time, we have seen a steady escalation in the 
cost of administering all national forests. Due to the tree 
species of high demand and high value on the Allegheny, we can 
still operate in a fashion to cover costs and return money to 
the United States Treasury and to the schools and townships of 
Warren, Forest, Elk, and McKean Counties.
    The latest numbers I have for Fiscal Year 1998 on the 
Allegheny show income of about $23.2 million. Almost all of 
this revenue is from timber harvesting. One-fourth of this 
money, or about $5.8 million, was returned to townships and 
schools in four northwestern Pennsylvania counties. Over this 
same time period, income of $105,000 was generated from 
recreation or special use permits. Some people have said that 
we can replace the dollars from sustainable timber harvesting 
with recreation dollars. On the Allegheny, we will need to 
increase recreation by about 220 times to replace the return 
from timber. Or the current fees will need to be raised by a 
factor of 220 to replace the timber revenues. Now, we don't 
think this is going to occur due to the limits of reality and 
to the law of diminishing returns. There is absolutely no 
replacement for the energy, the vitality, and the activity 
generated from sustainable harvest of forest crops.
    We are seeing many examples of large, beautiful, high-value 
black cherry and red oak trees lying horizontal and rotting on 
the ground. These trees have been brought down by high winds. 
This is nothing new; it has been going on for as long as we 
have had wind and trees. What is new is the total lack of 
ability of the people now running the forest to do anything 
about it. It is a shame to let the people's high-value 
resources rot on the ground.
    The Forest Service tells us that ``We are working on it; we 
need more money, and as soon as we get this or that study done, 
we will act.'' The evidence is that the Allegheny National 
Forest is becoming an area full of dead trees that look like 
skeletons with bark and limbs falling off. Reproduction of 
desired tree species is delayed or impossible and the industry 
is going elsewhere for raw material.
    The unique forest resource ecosystem in the Allegheny 
National Forest is very fragile, and it is not sustainable 
without active forest management. The way to sustain this asset 
for the America people, for our children, and for our 
children's children is to actively manage the forest.
    Presently, we have a bat, one Indiana bat on a road trip. 
He has since made an appearance in Vermont. This gets Fish and 
Wildlife involved. We have too many agencies with the same 
mission. I ask you, if we have half a million Indiana bats, are 
they really endangered or is the Endangered Species Act being 
used for some goal other than to protect endangered species? 
Does one bat indicate habitat or intentional stocking of that 
bat? The Endangered Species Act is flawed and needs to be 
fixed. The Allegheny National Forest, Madam Chairman, is 
beginning to resemble the demise of the goose that laid golden 
eggs.
    Please fix the appeals process. Every project since 1991 on 
the ANF and almost every other national forest has been tied up 
in appeals. Forest health declines, resources are wasted, we 
export our demands, gridlock rules, and employees become 
demoralized. The Forest Service needs primacy over the critters 
and fauna that inhabit their land. Please use peer reviewed 
science to manage our national forests.
    The Pennsylvania Forest Industry Association appreciates 
this opportunity testify before this Committee. We welcome any 
comments or questions.
    [The prepared statement of Mr. Anderson follows:]

Statement of Dale E. Anderson, President, Pennsylvania Forest Industry 
                              Association

The effects of The Endangered Species Act, the Appeals Process, 
and the current management direction of our Allegheny National 
Forest and other National Forests which has contributed to 
declining forest health, battered rural communities, and 
worldwide environmental degradation.
    I want to thank the Honorable Helen Chenoweth, for allowing 
us to testify at this hearing today. I also extend my thanks to 
the rest of the Committee.
    My name is Dale Anderson. I am the President of the 
Pennsylvania Forest Industry Association. This is a grassroots 
organization of people that work in the forest industry and 
other citizens, organized since 1963. I am testifying as the 
President of Pennsylvania Forest Industry Association.
    The timber resources of our National Forest system, 
including the Allegheny National Forest are slowly and quietly 
deteriorating due to a lack of forest management. The present 
policies of the Forest Service contribute to the decline of the 
health of the forest, batter the rural communities, and 
contribute to world wide ecologic problems by exporting our 
demands for forest products to other countries with low 
environmental priorities.
    My history with the Allegheny National Forest started with 
my high school days. I worked for a couple of years on the fire 
control team. Later, I worked on the Allegheny doing timber 
stand improvement. It was this experience that led me on to a 
degree in Forestry from the West Virginia University.
    The investments made in the 1960's by the Forest Service to 
improve these timber stands are now becoming ripe. For us to 
disregard these investments is not fair to the people of this 
country.
    While attending college, I worked as a Fire Control Aid on 
the St. Joe National Forest in the beautiful state of Idaho. I 
have fond memories of my summer in your great state, Madam 
Chairman.
    I have had experience with, and been an observer of the 
U.S. Forest Service, in the East and in the West, over a long 
period of time.
    Over time, we have seen a steady escalation in the cost of 
administering all National Forests. Due to tree species of high 
demand and high value on the Allegheny, we can still operate in 
a fashion to cover costs and return money to the United States 
Treasury and to the schools and townships of Warren, Forest, 
Elk, and McKean Counties.
    The latest numbers I have for FY 1998 on the Allegheny, 
show income of about $23.2 million. Almost all of this revenue 
is from timber harvesting. One-fourth of this money, or about 
$5.8 million, was returned to townships and schools in four 
northwestern Pennsylvania counties.
    Over this same time period, income of $105,000 was 
generated from recreation or special use permits. Some people 
have said that we can replace the dollars from sustainable 
timber harvesting with recreation dollars. On the Allegheny, we 
will need to increase recreation by about 220 times to replace 
the return from timber. Or, the current fees will need to be 
raised by a factor of 220 to replace the timber revenue.
    We do not think that this will occur due to the limits of 
reality and the economic law of diminishing returns. There is 
absolutely no replacement for the energy, the vitality, and the 
activity generated from the sustainable harvest of forest 
crops.
    We are seeing many examples of large, beautiful, high value 
black cherry and red oak trees lying horizontal and rotting on 
the ground. These trees have been brought down by high wind. 
This is nothing new. It has been going on as long as we have 
had wind and trees. What is new is the total lack of ability of 
the people now running the forest to do anything about it. It 
is a shame to let the people's high-value resources rot on the 
ground.
    The Forest Service tells us that ``we are working on it, we 
need more money, and as soon as we get this or that study done, 
we will act.'' The evidence is that the Allegheny National 
Forest is becoming an area full of dead trees that look like 
skeletons with bark and limbs falling off. Reproduction of 
desired tree species is delayed or impossible and an industry 
is going elsewhere for raw material.
    The unique forest resource ecosystem of the Allegheny 
National Forest is very fragile and is not sustainable without 
active forest management. The way to sustain this asset for the 
American people, for our children, and for our children's 
children is to actively manage the Forest.
    Presently, we have a bat. One Indiana Bat . . . on a road 
trip. He has since made an appearance in Vermont. This gets the 
Fish and Wildlife Service involved. We have too many agencies 
with similar missions.
    I ask you, if we have a half-million Indiana bats, are they 
really endangered? Or is the Endangered Species Act being used 
for some goal other than to protect endangered species? Does 
one bat indicate habitat or an intentional stocking of that 
bat? The Endangered Species Act is flawed and needs to be 
fixed.
    The Allegheny National Forest, Madam Chairman, is beginning 
to resemble the demise of the goose that laid golden eggs.
    Please fix the appeals process. Every project since 1991 on 
the ANF, and almost all other National Forests, has been tied 
up by appeals. Forest health declines, resources are wasted, we 
export our demand, gridlock rules, and the employees become 
demoralized.
    The Forest Service needs primacy over the critters and 
fauna that inhabit the lands they administer.
    Please use peer reviewed science to manage our National 
Forests.
    The Pennsylvania Forest Industry Association appreciates 
this opportunity to testify before this Committee. We welcome 
any questions or comments.

[GRAPHIC] [TIFF OMITTED] T8515.021

[GRAPHIC] [TIFF OMITTED] T8515.022

[GRAPHIC] [TIFF OMITTED] T8515.023

[GRAPHIC] [TIFF OMITTED] T8515.024

[GRAPHIC] [TIFF OMITTED] T8515.025

[GRAPHIC] [TIFF OMITTED] T8515.026

[GRAPHIC] [TIFF OMITTED] T8515.027

[GRAPHIC] [TIFF OMITTED] T8515.028

[GRAPHIC] [TIFF OMITTED] T8515.029

    Mrs. Chenoweth. Thank you, Mr. Anderson.
    The Chair now recognizes Ms. Keller.

STATEMENT OF SHEILA KELLER, TREASURER, MONTANA WOMEN IN TIMBER, 
                       KALISPELL, MONTANA

    Ms. Keller. Thank you, Chairwoman Chenoweth, Congressman 
Hill, and other members of this Committee for this opportunity 
to present my views of the small business owner concerning 
issues of forest management and how they impact us.
    My husband and I own three log trucks and other equipment, 
but, currently, we have just one other employee. My husband 
puts in extremely long hours to keep everything running 
smoothly, and I do whatever I can to relieve other pressures. 
In addition, I am an independent contractor representing a 
national advertising company, headquartered in Iowa. In that 
capacity, I call on all types of businesses in western Montana, 
northern Idaho, and in Spokane, Washington, so I have sort of a 
feel for the pulse of the business community in that area. I am 
also representing Montana Women in Timber, because I know 
first-hand the value of education in resolving issues in the 
resource debate.
    I grew up in Iowa and had little knowledge of the timber 
industry except that I wanted nothing to do with it. Shortly 
after we purchased our first truck, I was ashamed to say what 
we did for a living, actually, but I was invited to attend a 
Forest Service meeting where the discussion focused on 
historical fire and current conditions. It has been nearly 90 
years since the catastrophic 1910 fires when 50 million acres 
burned nationwide. Three million acres burned across northern 
Idaho into Montana and down the border that we share. On the 
Flathead National Forest, 25 percent of the forest burned. In 
the 90 years since that fire, timber harvest and fire together 
have not equal what was lost in that one event.
    I honestly felt I had been lied to, and things have not 
been the same in my life since, actually. If there were just 
one thing I could do, it would be education instead of 
legislation. I would urge every congressman, especially those 
who support the Northern Rockies Ecosystem Protection Act and 
zero cut legislation, to take just 20 minutes to watch the 
video, America's Forests: A History of Resiliency and Recovery, 
before they decide what our future will be.
    It is history of the United States as it relates to our 
forest. Douglas McCleary is still with the Forest Service here 
in Washington, DC, and he compiled the information, because he 
felt it was important to understand the past and how we got to 
where we are today in order to make responsible decisions for 
the future.
    Montana has been known as the Treasure State, yet the per 
capita income has been on a steady decline, until last year, 
when we hit the bottom of the Nation's pay scale along with an 
increasing poverty rate. Montana and her people are in trouble 
as we lose our industry's infrastructure with mill closures 
that are sold at auction, dismantled, and go to another 
country. The oldest family-owned mill in the State is now in a 
desperate situation as Flathead National Forest management 
comes to a halt.
    On the 29 percent of the Flathead that is in the timber 
base, our 1994 inventory showed annual growth of 138 million 
board feet and annual mortality of 53 million board feet. The 
primary manager of the forest has become the courts, and, most 
recently, the Ninth Circuit Court of Appeals, which agreed that 
timber harvest levels would harm the grizzly. In response, the 
Flathead National Forest developed Amendment 19 that reduced 
timber harvest to 54 million board feet--even though they 
haven't come close to that in my memory--and added road density 
standards for grizzly bear security that have resulted in 
hundreds of miles of forest road destruction.
    Unfortunately, bears cannot eat security. Since 
implementation of Amendment 19, there has been a dramatic 
increase in human-bear conflicts and incidents as bears have 
come down to our local rural schoolyard, broken into cabins, 
come onto porches, roamed local subdivisions in search of dog 
food, bird seed, human garbage. This year, 25 grizzlies were 
destroyed in the Northern Rockies ecosystem, most of them in 
management situations.
    Their preferred fall food is sun-loving huckleberries that 
provide the calories and carbohydrates they need for denning, 
but they are being crowded out by dense forests. Huckleberry 
researchers are concerned that ``lack of efforts to manage wild 
stands for huckleberries and decreasing use of clear-cuts will 
reduce the available habitat for this valuable plant.'' As 
roads are closed, fire will become a major forest manager, but 
huckleberries' shallow rhizomes and weak root systems are 
easily injured by even moderate fire.
    I have been involved in the collaborative process called 
Flathead Common Ground, and I am now participating in Senator 
Baucus' stewardship meetings. It is a process born of grant 
writers and paid volunteers. It is a lengthy and time-consuming 
situation. On Common Ground, we looked at 80,000 acres. We are 
going to treat 800 acres with logging, burn 8,600 acres, close 
119 miles of road, ending management.
    In Idaho, just across the border, there is a sale where 
homeowners--or a proposed sale where homeowners on the shores 
of Hayden Lake are anxious and willing to have 4,000 acres 
treated because of the bark beetle infestation. The Forest 
Service is anxious to treat this, yet a local environmental 
group has promised that they will sue so this will not be 
implemented. It is shame that environmental groups are willing 
to torch this valuable resource in the name of saving it.
    [The prepared statement of Ms. Keller follows:]

    [GRAPHIC] [TIFF OMITTED] T8515.030
    
    [GRAPHIC] [TIFF OMITTED] T8515.031
    
    [GRAPHIC] [TIFF OMITTED] T8515.032
    
    [GRAPHIC] [TIFF OMITTED] T8515.033
    
    [GRAPHIC] [TIFF OMITTED] T8515.034
    
    [GRAPHIC] [TIFF OMITTED] T8515.035
    
    [GRAPHIC] [TIFF OMITTED] T8515.036
    
    [GRAPHIC] [TIFF OMITTED] T8515.037
    
    [GRAPHIC] [TIFF OMITTED] T8515.038
    
    [GRAPHIC] [TIFF OMITTED] T8515.039
    
    [GRAPHIC] [TIFF OMITTED] T8515.040
    
    [GRAPHIC] [TIFF OMITTED] T8515.041
    
    [GRAPHIC] [TIFF OMITTED] T8515.042
    
    [GRAPHIC] [TIFF OMITTED] T8515.043
    
    [GRAPHIC] [TIFF OMITTED] T8515.044
    
    [GRAPHIC] [TIFF OMITTED] T8515.045
    
    [GRAPHIC] [TIFF OMITTED] T8515.046
    
    Mrs. Chenoweth. Thank you, Ms. Keller.
    And the Chair now recognizes Mr. Johnson from Forks, 
Washington. Mr. Johnson.

        STATEMENT OF BRETT C. JOHNSON, FORKS, WASHINGTON

    Mr. Johnson. Thank you. I would like to thank the 
Subcommittee for affording me the opportunity to testify here 
today. It won't be quite as good, not as many statistics. I 
probably won't end up reading a whole heck of a lot from this. 
I just want to come share my experience, strength, and hope as 
I was asked to. I would like to especially thank the Honorable 
Helen Chenoweth. I come from the State of Idaho, and, Madam 
Chairman, the State of Idaho is very lucky to have someone like 
you representing them.
    My name is Brett Johnson. I live on the west end of the 
Olympic Peninsula; Clallam County is the county I live within. 
Prior to moving there seven years ago, I lived on the I-5 
corridor in Seattle, the Redmond area, actually, where 
Microsoft comes from. When I lived in the Redmond area, Redmond 
had one stop light. As I went to school, Redmond changed. 
Instead of cutting down timber over there and replanting 
timber, they cut down timber and brought in a lot of folks from 
all sorts of places to take over that community, and that 
scares me; I am kind of protectionist that way. But, yet here I 
did, I moved over to a rural community. I had a mindset when I 
moved over to that community, and it was just this last year 
that my son had come from the urban area into the rural 
community, as well, and he has a great education just like I, 
myself, had.
    I live bordering the Olympic National Park, Sol Duc 
District, about 18 miles out of Forks, Washington. My education 
and my experience in the Seattle area, I showed up over in the 
Forks area for quite a few years enjoying the recreation 
opportunities that were there--swimming in the rivers, fishing 
in the rivers, hiking, and camping. It is a beautiful area. 
Some of the places I used to go to years before, I don't have 
access to, because some of the road problems. Now, I live in 
that community and a lot of my friends from the urban areas 
come over to visit and camp and do some fun things. We have to 
send them to different areas, because some of those roads are 
washed out due to lack of maintenance on Forest Service roads. 
Some of the best scenic areas--and I have got some pictures and 
this and that, that in the future I will send off to your 
Committee.
    I do appreciate the opportunity to step in here, because 
when I did move over to the Forks area, I had a real weird 
mindset. I had no idea what was going on in Forest Service 
lands. I didn't know--I figured I got across the ferry and it 
was the Olympic National Park. Well, that is a one million-acre 
park, basically, surrounded by 632,300 acres of what I would 
consider mismanaged--adapted mismanagement areas. No wildlife 
openings are being created there at all.
    I am told by quite a few of the biologists in some of the 
meetings I have sat in that elk and deer--see, I am not a 
biologist, a botanist, an attorney, a forester; I am a human 
being. And, frankly, some of the folks that found out I was a 
human being, some of the folks I used to hang out with quite a 
bit, tell me that I am the cancer of the Earth. I don't like 
hearing that.
    When I ended up coming over, there was a ranger by the name 
of Gary Harris on the Olympic region, Sol Duc District, who 
told me that our district and the Olympic region was being 
managed by the Rio treaty--I think was the terminology he 
used--biodiversity treaty is what he said, and I didn't 
understand that, because I thought that was our national Forest 
Service, USDA Forest Service, that was going to manage those 
lands for the betterment of our Nation and not the 
internationalists. When this ranger told me about that, it was 
at an adapted management area local meeting that was attended 
by quite a few folks from outside our area that were brought in 
from Oregon, and they had as much say as we did at this 
meeting, the local folks. That concerned me greatly. Here you 
are having a local meeting, and folks are brought in from an 
outside area that had a certain mindset. These folks tried to 
disrupt the meeting any time one of the local constituents was 
speaking.
    The problems I ran into with some of these folks--they 
ended up camping out on the piece of property where I lived, so 
the eco-terrorism stuff that was being talked about, I had 
plenty of threats from these folks when they found out I was 
speaking out against what they planned on doing, and that was 
creating a lot of havoc for us folks who lived in that local 
area.
    The adapted management area meetings--Gary Harris, the 
ranger, told me that the area in which I lived was imminently 
going to burn because of the mismanagement that was going on 
there. They had planted some lousy tree production; they 
wouldn't go in and thin it out, put any other trees in that 
area, and, historically, that area burns. It was suggested to 
me and my neighbors that if Gary lived in that area, he would 
move, because it was imminent there was going to be a fire in 
that neck of the woods. Well, I have a 12-year old son who has 
moved in with me there, and I would love for each and every 
member--especially the ones who aren't here and especially the 
one from the State of Washington, the Honorable Adam Smith, I 
believe is from Washington, and I have got a lot of friends 
over in his neck of the woods--they would come over and what I 
am hoping is that they will have the opportunity to come up and 
see the road problems. They are creating problems for the fish 
which have just now been listed, as well.
    Appreciate the opportunity. If I can answer any questions, 
I will try my best. Thank you.
    [The prepared statement of Mr. Johnson follows:]

            Statement of Brett C. Johnson, Forks, Washington

Testimony pertains to: Personal experience in dealing with 
issues specific to National Forest Systems Policy, Protection, 
and Public/Private Resource Management. Key points to include--
real people, local citizen attempts to participate in decision 
making process, lack of fire preventive measures and local 
economic concerns, accessibility and roads maintenance issues.
    I would like to thank the Subcommittee for affording me the 
opportunity to testify before you today, with special thanks to 
the Honorable Helen Chenoweth, Chairman. Madame Chairman, you 
represent the citizens of Idaho with great poise and 
professionalism.
    My name is Brett Johnson. I live on the West End of the 
Olympic Peninsula in Washington State, where I am raising my 
son Bryan who is twelve years old. He would be here today, but 
little league baseball matters more to our children than does 
congressional affairs. As we will see in this testimony, 
Congressional affairs do play a role in my child's education 
and our ability to continue living in this beautiful rural 
community.
    We live outside of town with one of our closest neighbors 
being the USDA Forest Service, Olympic Region, Sol Duc Ranger 
District. I am testifying today as an individual and by no 
means wish to represent my employer, or anyone else for that 
matter, at this time. The testimony I am giving is based upon 
my own personal experience visiting, as well as living on the 
Olympic Peninsula.
    Let me begin by noting that I have lived in the Forks, WA 
area for nearly seven years, having moved from the Seattle area 
in 1992. I had spent much time camping, hiking, biking, and 
sightseeing on the Olympic Peninsula for many years prior to 
moving there permanently. I brought with me an attitude I would 
now call ``urban think.'' This attitude was basically thinking 
I knew about environmental issues I had no personal experience 
with first hand. Herbert Spencer, a noted philosopher, once 
said ``There is a principle which is a bar against all 
information and which cannot help but keep a man in everlasting 
ignorance, that principle is contempt prior to investigation.'' 
This seems to fit me quite well.
    My contemptuous attitude began changing as I started to 
meet individuals, and families which had lived in this 
community for generations. Today, many of my closest friends 
are the children, grandchildren and great grandchildren of 
people like the Iron Man of the Hoh, John Huelsdonk. The 
Federal Government has incrementally taken portions of their 
family lands to assure our nations future generation a 
wilderness experience. These folks and their children have 
since been denied access to portions of lands and trails once 
developed and maintained by John Huelsdonk, Charlie Lewis and 
other family members. This generation has already been denied 
access to the wilderness experience they were promised.
    Old-timers in this community have taken time personally to 
escort me into the woods. Providing a great beginning of truly 
wonderful education. Seeing first hand the reality of our local 
forests and the forest health issues associated with non-
management of the resource has begun to open my eyes. 
Infestation of bugs, blow-down, fire hazard, overcrowded 
stands, and many other problems seem obvious to even this city 
boy. Little, or no action is being taken by the Forest Service 
to limit the devastating effects to humans by the inevitable 
fires that will occur in my neighborhood. Further degradation 
to the valuable resources of timber and wildlife continue.
    Ranger Harris, the previous Sol Duc District Forest Ranger, 
told me that they had gotten rid of almost all the fire 
fighting, and roads maintenance equipment the last few years. 
He further suggested that if we wanted any safety assurance, we 
should move away from the Snyder Ridge area, and that he 
anticipated a uncontrollable fire in that area soon. If the 
right conditions were present, such as dry summer, and an east 
wind it would be inevitable. He also acknowledged that the 
Forest Service was managing lands according to the Treaty in 
Rio. International management seems unconstitutional, is not 
site and situation specific, and therefore, seems a very 
ridiculous option to choose.
    As a member of the public, I have attended many of the 
Olympic Province Advisory Committee Meetings. This group was 
chartered out of the President's NW Forest Plan and appears to 
be lacking in site and situation specific management techniques 
also. Over the past few years, I have also attended the 
supposed local public meetings on the Olympic Adaptive 
Management Area. At these meetings, preservationists, brought 
in from Oregon had equal status with the local, most affected 
concerned citizens. This did not seem appropriate to me if it 
was to be a local informational and input meeting, as I was 
told.
    The Advisory Committee is obviously trying to take local 
economics, other than tourism, out of the picture entirely. By 
the way, promises of tourism are hollowed with the lack of 
maintenance on some of our more scenic forest roads. When asked 
to address local concerns regarding economically feasible 
timber harvest, the group balks. The professional facilitator 
then steers the group back onto other feelings oriented topics, 
while attempting to degrade the questioner's credibility and 
thus bypass any talk of real economics. The committee's own 
feelings seem to matter more than the feelings of the local 
people trying to feed their children.
    In 1995, I began a lunch buddy program at the local 
elementary school. Not having full custody of my own child at 
that time, I wanted to stay in tune with children his age, so 
as to, ready myself for the day when he moved in with me on a 
full time basis. While attending a reading session just prior 
to Christmas of 1995, I was greatly upset by something I saw 
and heard. One teacher, after reading Charles Dickens tale of 
the little Christmas Tree, asked the 4th Grade students in her 
class the following questions:

        (i)How would you feel if you were cut down and taken 
        away from your Mother, & family like the little tree 
        was in the story?
        (2)What would you think about being adorned with 
        ornaments for display, and after a few days taken 
        outside and set afire?
        (3)How come we humans are so uncaring to natures other 
        living beings?
    This is an example of the twisting of our children's minds 
which continues daily through schools, television, and the 
media with regards to natural resource issues. I have since 
participated in getting independent people from our community 
into schools to mitigate the damage some teachers personal 
agenda's may produce. Our children needn't feel guilty for 
living in homes made from forest products, or drinking the 
eight glasses of water as is suggested by the Department of 
Health, Education, and Welfare.
    Total annual timber harvest in Washington State on both 
Public and Private lands is now less than what occurred on the 
Sol Duc District alone in 1988. I don't think the people living 
in my rural community want the destructive band aids provided 
by the re-circulation of already existing tax dollars. What I 
hear them saying is--please let us go back to work creating new 
wealth from the extraction and replanting of a renewable 
resource. Timber grows very quickly with our approximately 150 
inches of rain annually and most tourists balk at spending time 
in a community that gets that much rain.
    Forest Health is declining, Rural Communities are being 
destroyed, and all this because of policies not based on sound 
science. Replacing science and economics, is the new 
international social science of Environmentalism. International 
Social Management has not worked elsewhere so, how about giving 
us back our jobs. We can help in taking care of the nations 
resource needs while providing habitat for a multitude of 
species badly in need of the wildlife openings our harvests 
will create with sustainability.
    Recent studies by USF&WS, USGS, & WDF&W, show our Elk & 
Deer numbers are way down on the west-end of the Olympic 
Peninsula and many biologists I've spoken with say this is 
directly attributed to the lack of wildlife openings. Openings, 
that were previously being created by harvest of timber and 
providing for economic values to come off of the Peninsula's 
large public land base. Visitors tell me how bad the clear-cut 
looks and then explain it was on the edge of this eyesore they 
saw the elk they had photographed.
    I would like to finish by thanking this Committee for 
allowing me to share a little of my own personal experience and 
observations on this issue. I would love for each member of 
this Committee to come into my back yard, upon scheduled 
invitation of course, and take a tour of the Olympic National 
Forest with real people rather than agency personnel as is 
typical. You will be amazed at the beauty the loggers 
paintbrush has created on the landscape and the danger to it 
that now exists because of mis-management. I welcome any 
questions, comments or future correspondence.

    Mrs. Chenoweth. Thank you, Mr. Johnson.
    I thank the panelists for their valuable testimony, and the 
Chair now recognizes Mr. Hill for his questions.
    Mr. Hill. I thank you, Madam Chairman, and I want to echo 
your comments and thank the panelists for their testimony.
    Sheila, I want to ask you a few questions, if you don't 
mind. I found kind of interesting when you made reference to 
the fact that you were embarrassed to say what you did and that 
you owned a logging truck. Do you consider yourself a person 
that cares about the environment?
    Ms. Keller. Absolutely. I probably, originally, I was one 
of those who had no idea of my own personal impact on the 
environment, and education has played such a great role, I now 
realize that absolutely everything I use and everything I do 
comes from the Earth. If it can't grown, it has to be mined. 
And we have been using these things since man began, and we are 
using them better than ever, and here, in the United States, we 
have the best technology, the best methods, the most concern 
for our environment and the stewardship practices. As we are 
making these decisions, we are deciding to send all of our 
environmental concerns to another country while we do the 
consuming, and that doesn't seem right. We are the responsible 
ones, and we can make very responsible decisions concerning our 
resources.
    Mr. Hill. In your opinion, has the administration's road 
moratorium impacted the wood products industry in Montana?
    Ms. Keller. Absolutely. It is kind of hard to say what--I 
don't know that there has been a single sale on the Flathead 
that is coming down the pike except for maybe a 30-acre 
collaboration process that took two years. It is not only 
impacting timber harvests--perhaps, the best illustration of 
how it has impacted us is that we generally have one truck 
sitting. In addition, it is impacting snowmobiling and other 
recreation. So, tourism that was supposed to be our salvation 
is now, actually, it is on appeal. There is a snowmobile area 
that is being appealed by a local environmental group, the same 
ones that want to stop timber harvests. And on the 
collaborative process that we call Paint Emery, that Flathead 
Common Ground worked on, all proposals include taking out a 
groomed snowmobile trail there also.
    Mr. Hill. You made reference in your testimony to trying to 
find some common sense solutions, and you have worked on 
Flathead Common Ground, which is a collaborative effort in your 
area, but in your testimony, you said that it was a process 
born of grant writers and paid volunteers, I think. That is a 
frustrating process. Would you describe why you described it 
that way? Would you explain that?
    Ms. Keller. Most of those who come to the table have a 
vested interest in keeping the processes long and involved and 
as lengthy as possible. There may be a few mill personnel who 
come once in a while. I make it once in a while, but most of 
those who sit at the table have received grants to participate 
in the process and promote it as the way to go; others are paid 
staff of volunteer groups.
    Mr. Hill. So, they are making money being there, and it is 
costing you money to be there, right.
    Ms. Keller. They are making money, absolutely.
    Mr. Hill. That is kind of unfair. Pretty hard to find 
common sense solutions, isn't it?
    Ms. Keller. Well, I hope it is not impossible. If there is 
any benefit at all to the collaborative process, it might be a 
measure of education, but most of those who sit at the table 
come with a mindset and an agenda--just as I said in Flathead 
Common Ground, the goal was to implement amendment 19, and most 
of those came to the table with a goal in mind--119 miles it 
shuts off whole drainage and----
    Mr. Hill. This is for everybody's identification, amendment 
19 is a road closure amendment, isn't that correct? It is an 
amendment to the Forest Plan and transportation for endangered 
species management.
    Ms. Keller. Some local environmental groups sued the 1986 
Forest Plan, they lost at the State level and took it to the 
Ninth Circuit Court of Appeals where they lost on every point 
except for one, which was how timber harvest affected the 
grizzly bear. Of course, you can see that the court wasn't a 
forester and wasn't a biologist, because huckleberries aren't 
growing in grizzly bear habitat. The only criterion for 
protecting the grizzly seems to be security, and, as far as I 
am concerned, the grizzly, just his size and his presence is 
enough security for me.
    [Laughter.]
    Mr. Hill. We have increased incidents of people, conflicts 
with grizzly bears, haven't we in recent years?
    Ms. Keller. Last year, it was record number, and this was 
due in large part to a failure of the huckleberry crop. There 
was some frost damage, and because we are losing our 
huckleberry crop across the entire forest, there just weren't 
enough huckleberries to support the bear population.
    Mr. Hill. So, the bears are coming out of the deeper 
forests, and they are coming into areas where there are more 
people, isn't that right?
    Ms. Keller. They are searching for food in what ever place 
they can find it.
    Mr. Hill. Interestingly, the greatest threat to grizzly 
bears is that encounter, when they encounter people in suburban 
areas or in areas where people and the forest intersect. Isn't 
that right? I mean, almost always, those bears end up being 
removed, don't they?
    Ms. Keller. The policy generally becomes ``A fed bear is a 
dead bear.'' Once they have found a food source they can 
access, then they become repeat offenders.
    Mr. Hill. One last point: you mentioned you are in the 
farming business, as well. Are you in the ranching or farming 
business?
    Ms. Keller. That was my husband's grandfather who farmed.
    Mr. Hill. Your area is also impacted by another endangered 
species, timber wolves, isn't it?
    Ms. Keller. Yes. On the Flathead National Forest, I had a 
former Forest Service employee tell me--First understand that 
these are natural packs in our area, so they don't come under 
the same guidelines as the Yellowstone-introduced packs. In the 
North Fork, wildlife is disappearing rapidly, because, as this 
Forest Service employee said, the wolves view the elk calves as 
popcicles.
    Mr. Hill. Well, that is their number one diet, isn't it, if 
possible?
    Ms. Keller. Generally, it seems to be the young. They like 
to tell us that they cull the herds for the old and disabled, 
but it has proved to be a detriment to the calf population, 
which is the future of that herd there.
    Mr. Hill. Thank you very much for your testimony.
    Madam Chairman, I have to leave; I have another meeting. 
But thank you for holding this hearing. I want to thank, 
Sheila, you, for being here and the other panelists, and I 
appreciate very much the opportunity to hear your testimony. 
Thank you.
    Mrs. Chenoweth. Thank you, Mr. Hill, and thank you for 
making sure Ms. Keller came back. I appreciate that.
    The Chair now recognizes Mr. Sherwood.
    Mr. Sherwood. Thank you, Madam Chairman. Thank you very 
much, Mr. Anderson, Ms. Keller, and Mr. Johnson, for your 
testimony.
    It seems to me that it is illustrative that we have 
policies that have gone awry, and we are getting unintended 
consequences--that is a new phrase I have learned since I came 
to Washington. But it looks like the management practices that 
we have taken on in so many cases are counterproductive, and, 
Mr. Anderson, I live about 160 miles east of you out Route 6, 
and, Ms. Keller, some of my best friends drive log trucks, so 
don't--no apologies necessary here.
    Dale, talk to me a little bit about the Allegheny National 
Forest. In other words, give us a price--this Committee has a 
little western bias, and they have an even-aged forest, and 
they cut it down, and it makes a big difference. In ours, we do 
a lot of selective cutting, and it regenerates. We have got 
lots of water, and tell them a little bit how valuable those 
cherry trees are now that are fallen down?
    Mr. Anderson. Well, some of those cherry trees contain in 
the neighborhood of 500 to 1,000 board foot; trades anywhere 
from $6 to $8 per board foot for a good one. So, what does that 
come out to? About somewhere around $6,000 a tree.
    Mr. Sherwood. Trees, yes.
    Mr. Anderson. These are pretty expensive trees. They trade 
worldwide. There are people that come in from Germany, France, 
Belgium. They walk through the woods and of the ones that are 
marked on Forest Service lands, they will say that ``Yes, that 
looks like a good one; I think we will take that one.'' And, so 
they are pretty much handled almost as individual trees.
    I know people that operate mills that buy Forest Service 
timber that walk up after they have purchased the timber; it is 
marked for a log; he inspects the tree, and marks on it with 
his own paint how long he wants that log cut. They will cut it 
20 foot long, and that log stays 20 foot long until it gets to 
the veneer plant where they then cut it into a couple of 
multiples, because every time you cut that log, particularly in 
dry weather, it may check, and part of it isn't able to be 
used. So, by leaving it long length, they keep all of the value 
in that log. They don't have to trim off a foot. It is just too 
dear. It is a beautiful resource.
    I think I was in one congressman's office today that had a 
black cherry table, and he was from Idaho--I forgot to mention 
it.
    Mr. Sherwood. Well, I just went through a new bank that was 
opened in Clark Summit, Pennsylvania the other day, and it is 
paneled entirely with native Pennsylvania black cherry, and it 
is absolutely gorgeous. I used some in my house when my wife 
and I built it several years ago.
    But the purpose of this testimony is to show what a 
tremendous resource we are letting go to waste. Here are these 
trees delivered to the mill; could be worth from $2,000 a piece 
and up, and because we are worried about a bat in the forest, 
we have the whole forest shut down. Is that correct? There is 
no activity on the Allegheny right now?
    Mr. Anderson. Yes. Right now, this is--it is shut down 
because we are waiting for a decision from Fish and Wildlife 
called a biological assessment. You have to understand that 
this started out because they found a bat, but since they found 
a bat, now we are going to do a biological assessment for the 
Indiana bat, for the Bald Eagle, for the whorlded pogonia 
(Isotria medeoloides), and some mussels in the Allegheny River. 
So, by the time all this study gets done, are we going to cut 
any trees? It doesn't look like it to me.
    Mr. Peterson has gotten Fish and Wildlife more money to get 
this study done. The study still isn't done. It just seems like 
we want more money, so we can study more things, so we can cut 
less timber. It was interesting listening to the law 
enforcement guy here. All the problems that we have in the 
forests have gone up, while the timber harvest has gone down.
    Mr. Sherwood. And I am very familiar with the private 
ground to the east of the Allegheny National Forest, and 
because there is no cut going on on the Allegheny, they are 
cutting that private ground pretty strong, maybe too strong. In 
other words, we have not in the past cut it so it wasn't 
sustainable, but, right now, because of the pressure for the 
high dollar, especially the cherry but some red oak too, that 
private ground is being cut pretty hard. So, I think the 
Indiana bat is making us do two things that are real foolish: 
We are cutting some of our private ground too hard and letting 
our very valuable resource on the Allegheny get old and fall 
over.
    When you take those prime, beautiful trees out in a 
selective cut, that opens up the canopy; then the small trees 
grow, and in the East, we can have a cycle. But if we let them 
fall down, it won't work, and I think that is the purpose of 
your testimony today, and any other comments I would be glad to 
hear, but I thought the three of you did an excellent job.
    Mr. Anderson. Well, thank you; it has been a real pleasure.
    Mr. Sherwood. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Sherwood.
    I wanted to ask Mr. Johnson, was there any particular event 
or series of events that caused you to challenge the urban 
thinking of your Seattle life after you moved to the Olympic 
Peninsula, and what did you say in 1992?
    Mr. Johnson. Well, getting a chance to meet some of the 
people on the ground, and while I was over there, my son lived 
in Redmond, because he was going to school at Horseman 
Elementary, and to keep the relationship going with him, I felt 
I needed to be active and involved with kids his age. So, I 
started to do a Lunch Buddy Program.
    Mrs. Chenoweth. Pardon me, a what?
    Mr. Johnson. Lunch Buddy. I would go into the elementary 
school and hang out with a couple of different kids who were 
having some trouble in the community, and if they were getting 
their homework done, we would sit down and we would do lunch. 
If they weren't getting their homework, we would sit down and 
do homework, and they taught me an awful lot, as a matter of 
fact.
    But, one occasion, I went into the classroom, and it was 
just prior to Christmas, and they were reading--not Charles 
Dickens; I made a mistake. I was thinking a Tale of Two 
Cities--urban and rural, I guess; it was a slip--but it was 
Hans Christian Anderson's, The Little Christmas Tree; wonderful 
story. But the questions following the reading of this that the 
teacher posed to these kids were utterly amazing. Questions to 
the effect--and I can basically read to those to you--but what 
it had to do with was how would you feel--posing this question 
to these young children, fourth graders--how would you feel if 
you were cut down and taken away from your family, put on 
adornment with lights and displayed and then taken outside a 
few days later and burned? I mean, that is utterly amazing to 
have happen in the community that was built on natural resource 
extraction.
    And I guess that is one other thing I would love to get a 
chance to mention is the term ``timber-dependent communities.'' 
I came from a timber-dependent community--Redmond, Washington. 
I was born in Salmon, Idaho, but I spent most of life in 
Redmond, Washington, and they are a timber-dependent community. 
The community I moved into is timber extraction-dependent, and 
timber renewal-dependent, and to renew it, one must harvest, 
and back on the point, the elk and deer--one of the reasons I 
moved over to that neck of the woods was the elk and deer 
populations, and they are declining from the U.S. Fish and 
Wildlife, U.S. Geological Survey, and Washington State 
Department of Fish and Wildlife. The recent study to 
reintroduce wolves--however it is said--into our backyards 
pointed out this problem, and they highlighted the fact that we 
are not harvesting timber that is going to provide the 
biodiversity that even the biodiversity treaty talks about. So, 
I appreciate the opportunity to answer that question.
    My concern and what I have tried to stay involved in since 
that occasion with that one teacher is to get involved in some 
partnerships in education, and I understand the Alliance for 
America has a Providers Power Program that is pretty much right 
in line with that. Let these kids know where their food a lot 
of these products really come from, not Safeway or McDonald's.
    Mrs. Chenoweth. Thank you, Mr. Johnson. I appreciate your 
comments, and I do think that it is important that our students 
realize actually what a tree, itself, can produce--the list of 
products that comes just from a tree. I was surprised, and this 
is an issue of great concern to me what is happening with the 
indoctrination of our young people, and it just takes the sheer 
joy away; that is unfortunate.
    I do want to thank the members of this panel; you have 
prepared well. I thank you for your testimony. You have come a 
long way to supplement the record on a very, very important 
issue, and I am deeply grateful. Thank you very much.
    The hearing record will remain open for those who wish to 
supplement your testimony, and if there is no further business, 
the Chair, again, thanks the members of the Subcommittee, and I 
am very appreciative of all of their good questions. And I 
thank our witnesses.
    This Subcommittee is adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]
</pre></body></html>
